<html>
<title> - ASSESSING THE EFFECTIVENESS OF AGRICULTURAL DISASTER ASSISTANCE PROGRAMS IN THE WAKE OF THE 2008 MIDWEST FLOODS, HURRICANE GUSTAV, AND HURRICANE IKE</title>
<body><pre>[Senate Hearing 110-798]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 110-798
 
                     ASSESSING THE EFFECTIVENESS OF
                    AGRICULTURAL DISASTER ASSISTANCE
                    PROGRAMS IN THE WAKE OF THE 2008
                   MIDWEST FLOODS, HURRICANE GUSTAV,
                           AND HURRICANE IKE

=======================================================================


                             JOINT HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE

                                and the

                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                                 of the

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION


                               __________

                           SEPTEMBER 24, 2008

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov



                  U.S. GOVERNMENT PRINTING OFFICE
46-170                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001



           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
KENT CONRAD, North Dakota            RICHARD G. LUGAR, Indiana
MAX BAUCUS, Montana                  THAD COCHRAN, Mississippi
BLANCHE L. LINCOLN, Arkansas         MITCH McCONNELL, Kentucky
DEBBIE A. STABENOW, Michigan         PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         LINDSEY GRAHAM, South Carolina
KEN SALAZAR, Colorado                NORM COLEMAN, Minnesota
SHERROD BROWN, Ohio                  MICHEAL D. CRAPO, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             CHARLES E. GRASSLEY, Iowa

                Mark Halverson, Majority Staff Director

                    Jessica L. Williams, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                 Vernie Hubert, Minority Chief Counsel

                                  (ii)




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS



               JOSEPH I. LIEBERMAN, Connecticut, Chairman

CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH,Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L Alexander, Staff Director

     Brandon L. Milhorn, Minority Staff Director and Chief Counsel

                  Trina Driessnack Tyrer, Chief Clerk

                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                 MARY L. LANDRIEU, Louisiana, Chairman

THOMAS R. CARPER, Delaware           MARK L. PRYOR, Arkansas
TED STEVENS, Alaska                  PETE V. DOMENICI, New Mexico

                     Donny Williams, Staff Director

                 Aprille Raabe, Minority Staff Director

                       Kelsey Stroud, Chief Clerk

                                 (iii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Assessing the Effectiveness of Agricultural Disaster Assistance 
  Programs in the Wake of the 2008 Midwest Floods, Hurricane 
  Gustav, and Hurricane Ike......................................     1

                              ----------                              

                     Wednesday, September 24, 2008
                    STATEMENTS PRESENTED BY SENATORS

Harkin, Hon. Tom, a U.S. Senator from the State of Iowa, 
  Chairman, Committee on Agriculture, Nutrition and Forestry.....     1
Landrieu, Hon. Mary L., a U.S. Senator from the State of 
  Louisiana......................................................     3
Vitter, Hon. David, a U.S. Senator from the State of Louisiana...     4

                                Panel I

Conner, Charles F., Deputy Secretary, U.S. Department of 
  Agriculture; accompanied by Kate Houston, Deputy Under 
  Secretary for Food, Nutrition, and Consumer Services, and Arlen 
  Lancaster, Chief, Natural Resources Conservation Service, U.S. 
  Department of Agriculture......................................     6

                                Panel II

Asell, Lyle W., Special Assistant to the Director of Agriculture, 
  Iowa Department of Natural Resources, Des Moines, Iowa.........    27
Ellender, Wallace ``Dickie'' IV, Southwest Louisiana Sugar Cane 
  Farmer, Bourg, Louisiana, and Chairman, National Legislative 
  Committee, American Sugar Cane League..........................    29
Hardwick, Jon W. ``Jay'', Northeast Louisiana Cotton Farmer, 
  Newellton, Louisiana, and Vice Chairman, National Cotton 
  Council........................................................    34
Jayroe, Natalie, President and Chief Executive Officer, Second 
  Harvest Food Bank of Greater New Orleans and Acadiana, New 
  Orleans, Louisiana.............................................    32
Prather, Barbara, Executive Director, Northeast Iowa Food Bank, 
  Waterloo, Iowa.................................................    25
Strain, Mike, Commissioner, Louisiana Department of Agriculture 
  and Forestry, Baton Rouge, Louisiana...........................    22
                              ----------                              

                                APPENDIX

Prepared Statements:
    Grassley, Hon. Charles E.....................................    42
    Asell, Lyle W................................................    47
    Conner, Charles F............................................    49
    Ellender, Wallace............................................    59
    Hardwick, Jon W..............................................    71
    Jayroe, Natalie..............................................    75
    Prather, Barbara.............................................    79
    Strain, Mike.................................................    83
Document(s) Submitted for the Record:
    Commissioner of Agriculture for the State of Texas, prepared 
      statement..................................................    88
    Louisiana Bankers Association, prepared statement............    90
    U.S. Department of Agriculture, Food, Nutrition and Consumer 
      Services, prepared statement...............................    91
    United Way of Central Iowa, prepared statement...............    96
    USA Rice Federation and U.S. Rice Producers Association, 
      prepared statement.........................................   101
    ``Restoring the Hoosier Heartland'', written report submitted 
      by Governor Mitch Daniels of Indiana.......................   107
    Written letter to Hon. Nancy Montanez-Johner, Under Secretary 
      of Agriculture for Food, Nutrition and Consumer Services 
      from various Members of Congress...........................   125
Question and Answer:
Chambliss, Hon. Saxby:
    Written questions to Charles F. Conner.......................   128
Coleman, Hon. Norm:
    Written questions to Charles F. Conner.......................   129
Grassley, Hon. Charles E.:
    Written questions to Lyle Asell..............................   130
    Written questions to Barbara Prather.........................   132
Asell, Lyle:
    Written response to Hon. Charles E. Grassley.................   133
Conner, Charles F.:
    Written response to Hon. Saxby Chambliss.....................   138
    Written response to Hon. Norm Coleman........................   142
Prather, Barbara:
    Written response to Hon. Charles E. Grassley.................   147



                     ASSESSING THE EFFECTIVENESS OF



                    AGRICULTURAL DISASTER ASSISTANCE



                    PROGRAMS IN THE WAKE OF THE 2008



                   MIDWEST FLOODS, HURRICANE GUSTAV,



                           AND HURRICANE IKE

                              ----------                              


                     Wednesday, September 24, 2008

                                       U.S. Senate,
                                  Committee on Agriculture,
                                   Nutrition, and Forestry,
                                     Ad Hoc Subcommittee on
                                         Disaster Recovery,
                             Committee on Homeland Security
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committees met, pursuant to notice, at 10:16 a.m., in 
room SR-328A, Russell Senate Office Building, Hon. Tom Harkin, 
Chairman of the Committee, presiding.
    Present: Senators Harkin, Landrieu, Chambliss, Thune, and 
Grassley.
    Also present: Senator Vitter.

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM THE STATE OF 
    IOWA, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION AND 
                            FORESTRY

    Chairman Harkin. The Senate Committee on Agriculture and 
the Senate Committee on Homeland Security and Governmental 
Affairs will come to order.
    We thank you for joining us today as we begin this joint 
hearing between these two committees. I especially want to 
thank my colleague Senator Landrieu for her hard work in 
helping to put this hearing together.
    The devastation caused by these natural disasters has 
turned the lives of thousands of Americans upside down. I hope 
the hearing today can help provide some insight into how the 
Federal Government has helped and how it can improve its 
ability to help communities in need following a disaster.
    Now, of course, I will speak about what happened in Iowa. 
Perhaps the biggest remaining need of agricultural producers 
hit hard by the floods involves restoring the land. The 
flooding that we had, some tornadoes, of course, the hurricanes 
have devastated conservation structures that will need to be 
rebuilt and shows the need for a greater effort to 
prospectively address conservation needs through more 
floodplain easements and better conservation stewardship. A 
famous cartoonist but also a famous conservationist by the name 
of J.N. ``Ding'' Darling, from Iowa, a very famous cartoonist 
but one of the first of the conservationists back in the early 
part of the last century, once said that the best way to 
prevent floods is to stop the raindrop where it falls. And I 
have thought about that a lot, seeing all these floods in Iowa.
    For emergency conservation needs, the supplemental 
appropriations bill passed before the July 4th recess provided 
funding to the Emergency Conservation Program and the Emergency 
Watershed Program.
    I did a lot of flying over Iowa in a small plane during and 
right after the flooding in Iowa, and I saw and actually took 
some pictures--which I gave to Secretary Schafer at one time, 
Chuck, you may remember--of the dramatic benefits of sound 
agricultural conservation practices. I have pictures where you 
could see buffer strips, grassed waterways, no-till, and 
wetlands that kept the topsoil in place, filter sediment helped 
hold the water back. By contrast, I took other pictures of bare 
black fields with little or no conservation measures in place 
that had obvious erosion of topsoil from the rains and the 
flooding.
    So Iowa's experience over the past couple of months 
demonstrates the need for the future conservation investments 
that we wrote into the new farm bill. We have to do more in 
every State to improve conservation activities. At the same 
time, it is important to provide farmers with the financial and 
technical assistance they need to achieve demonstrably greater 
conservation performance, through things like the EQIP program 
and the CSP program.
    For farmers facing significant crop losses, USDA has in 
place both the Federal crop insurance program and, beginning 
for this crop year, the 2008 crop year, a standing crop 
disaster assistance program that was established in the 2008 
farm bill. That legislation also included additional disaster 
assistance for livestock farmers, tree crop producers, 
producers of other things like fish and others that do not 
neatly fit into these other programs. It is critically 
important that USDA reach out to farmers so that they have the 
information they need to understand whether these programs will 
be of use to them, and that be the focus of the line of 
questioning that I will pursue on that.
    Last, lest we forget, one big role of agriculture is food 
assistance. And on the food assistance side of the equation, we 
know that the Federal Food Stamp Program is the first line of 
defense against hunger not only for low-income families but for 
people who have been hit by a natural disaster, and it becomes 
even more important there. The experiences in Iowa--and I am 
sure in Louisiana and Texas--will offer us insight into how the 
Federal Government can help make sure that that food assistance 
is there readily and rapidly and make sure it gets to people 
who need it, those who were impacted by these disasters.
    The waters in our State have receded, the rebuilding phase 
is underway, but significant challenges remain for low-income 
families hit hardest by the flooding. So continued support is 
needed for them, and continued support is needed for 
agriculture and rebuilding and renewing some of the things that 
were--conservation measures that were damaged or destroyed. But 
then, again, I always say we have to think prospectively. Let's 
think ahead, and what can we do to be better at stopping that 
raindrop when it falls in the future?
    With that, I would recognize my dear friend and colleague, 
Senator Landrieu.

  STATEMENT OF HON. MARY L. LANDRIEU, A U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Landrieu. Thank you, Chairman Harkin, and I so 
appreciate your willingness to co-host this hearing with me as 
we try to bring some focus on a disaster that has unfolded and 
is continuing to unfold today as we speak in several States 
throughout our country.
    Those of us who represent strong agricultural economies 
understand, Senator, that natural disasters are not just about 
the human tragedy of cities and urban areas besieged by water 
and wind in hurricanes and storms and heavy rains. But we have 
all seen reporters at the seawalls in Galveston or at the 
Industrial Canal system in New Orleans. But that only tells 
part of the story, Senator, of these hurricanes that have 
rammed the Gulf Coast.
    Far from the television cameras, there is an economic 
crisis unfolding of major proportions throughout Louisiana. 
Northeast Louisiana particularly has been an agricultural 
breadbasket of our Nation since the 1790's. From soybeans to 
sweet potatoes, cotton, and corn, Louisiana farmers have been 
an integral part of the food chain in our country. And looking 
further south, of course, you know because you have visited, 
sugar cane has been the part of our economy since the Jesuits 
planted the first stalk on Baronne Street right now across from 
St. Patrick's Cathedral in New Orleans.
    These centuries of productivity, culture, and history are 
literally, Senator, threatened by the devastation caused by 
Gustav and Ike. Our farmers are not standing on rooftops. They 
were not rescued by the Coast Guard. But the tragedy and loss 
that they have experienced is every bit as real as the loss 
that other citizens in Louisiana have experienced through these 
storms.
    The point of our hearing today is to bring the spotlight on 
this untold story of this disaster and to bolster our request 
for immediate and substantial assistance to the agricultural 
sector of Louisiana and other States that need similar help.
    I want to say that both in Iowa, where your industry, your 
agriculture industry, is about a $19 billion industry and ours 
a $10 billion industry is one of the largest in our State. The 
storms that hit Louisiana--Faye, heavy rains in Faye, although 
it hit Florida, the rains traveled throughout our area of the 
country--not just inches, Senator, but feet. Gustav and Ike 
then came on the heels of Faye, and not only had tremendous 
coastal flooding, saltwater intrusion, but, again, dumped heavy 
rains and precipitated flooding in creeks and rivers and 
streams throughout bayous throughout our State. It has caused 
unprecedented damage, which is the testimony that you will 
hear.
    So we are not just talking only, though, about the farmers 
and the fields. Right here is a good picture. I do not know 
whether this came from Louisiana or Iowa, but a lot of our 
fields look just like this. I was walking through them this 
weekend. But these storms have a domino effect on our entire 
agricultural industry. Lenders, grain storage elevators, and 
our bankers are all sitting on pins and needles.
    This is a rice farmer holding the destroyed rice in his 
hands in Cheneyville, Louisiana, and up here is a picture of 
our cotton crop in North Louisiana. Right before these rains, 
Senator, this was the most beautiful cotton crop that you could 
have ever seen in Louisiana. Our farmers were giddy with 
excitement about the banner agricultural year that they were 
just about ready to have. And unfortunately, these storms hit 
right before harvest time. So we are literally sitting in miles 
and miles of fields of cotton that looks like this, rice that 
looks like this. Some of our rice was harvested, but not enough 
of it.
    So far, the estimated damage--and these are simply, 
Senator, preliminary estimates--is $700 million just for Gustav 
because the Ike numbers have not come in yet. We have not seen 
agricultural losses like this in memory--in memory.
    So that is what this hearing is about. I am very happy to 
have our Commissioner of Agriculture Mike Strain, newly elected 
but not new to this issue. He comes to us as a veterinarian and 
as a leader of our ag community. He has been walking the halls 
of Congress here with our Lieutenant Governor and other elected 
officials for days trying to bring this message to Congress.
    So I thank you. I am going to submit the rest of my 
statement for the record, but, again, the point of this 
hearing, Senator, is to really sound the alarm before Congress 
leaves to give some special attention to the agricultural 
sectors of our State that have not been photographed very much. 
And this is not a hit to the press. They have more pictures 
than they know what to do with to take of Galveston and other 
areas that have been flooded. But we must bring this issue to 
the attention of our Congress, and I thank you very much, and I 
will have more questions later.
    Chairman Harkin. Thank you very much, Senator Landrieu.
    Now I yield to Senator Vitter, our other Senator from the 
great State of Louisiana.

 STATEMENT OF HON. DAVID VITTER, A U.S. SENATOR FROM THE STATE 
                          OF LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman, and I will be very 
brief.
    First of all, I, too, want to thank you for this hearing 
and also express our support for your people and all of the 
difficulty you all have gone through with enormous flooding in 
the Midwest for several, several months. So we certainly stand 
with you with regard to that, and you can count on our help in 
any way possible. And certainly we feel the same way about the 
people of Texas who were very hard hit and face significant ag 
impacts. In general, the impacts are great there, particularly 
southeast Texas and areas like Galveston.
    Mary is exactly right, and the horn of our dilemma or the 
nature of our challenge is this: First, I think the Nation has 
a general sense that although Gustav and Ike were significant 
storms, we sort of dodged the bullet in Louisiana. Well, 
certainly that is true in the sense that it did not cause 
crisis and devastation like Katrina and Rita did, particularly 
in urban areas like New Orleans. But, in other ways, it is 
really not true, and the biggest area where it is really not 
true is agriculture. And, unfortunately, Gustav and Ike 
together caused more devastation and more loss across more of 
the State in agriculture than Katrina and Rita.
    It is hard to really grasp that just based on the nature of 
the storms and the categories, but it is true. Gustav and Ike 
impacted almost every corner of the State, including with 
torrential rains in central and north Louisiana. And so the 
impact to ag was enormous and was absolutely greater than the 
impacts of Katrina and Rita.
    Now, you couple that with the fact that under our disaster 
laws like the Stafford Act, many things happen automatically 
once you have a Presidential disaster declaration. But, 
unfortunately, for the most part, help for ag and fisheries 
does not happen automatically. For the most part, we need to 
act affirmatively for anything meaningful to get done. There is 
no automatic grants of certain monies as there is for debris 
removal or individual assistance under the Stafford Act.
    And so that is really the nature of our challenge: enormous 
loss, particularly in ag and fisheries, that is widely 
underappreciated on the national scale, with the fact that 
there is nothing in Federal law that automatically kicks in. So 
we really truly need to act, and I appreciate your leadership 
as we do act on a very tight timetable.
    Chairman Harkin. Thank you very much, Senator Vitter, and, 
again, to both of you, again, whatever help we can be we are 
sort of all in this together. And we need to let the rest of 
the country know just how badly our people are hurting and what 
is happening, of course, in the area of agriculture, is not 
highlighted as much, perhaps, as you said, as other things are 
highlighted.
    I just remember the floods in Iowa. All over the world TV 
viewers saw pictures of Cedar Rapids underwater, and it was 
devastating. But you did not see much about what was happening 
out on the farms, and those farmers out there and stuff like 
that in their fields just gone.
    Once I was in a field of a number of farms where a levee 
broke, and there was, I think, about 12,000 acres totally 
devastated. You just do not see pictures of that. It sort of 
looked like that, Mary, something like that.
    Well, we have two panels. Our first panel, Mr. Chuck 
Conner, Deputy Secretary, U.S. Department of Agriculture; Ms. 
Kate Houston, Deputy Under Standard for Food, Nutrition, and 
Consumer Services; and Mr. Arlen Lancaster, Chief of the 
Natural Resources Conservation Service. This will be our first 
panel. The next panel will have people from both Louisiana and 
Iowa testifying.
    So, Mr. Conner, welcome to the Committee. Your statement 
will be made a part of the record in its entirety. If you could 
summarize for us, we would be most appreciative. Welcome back.

    STATEMENT OF CHARLES F. CONNER, DEPUTY SECRETARY, U.S. 
DEPARTMENT OF AGRICULTURE; ACCOMPANIED BY KATE HOUSTON, DEPUTY 
UNDER SECRETARY FOR FOOD, NUTRITION, AND CONSUMER SERVICES, AND 
ARLEN LANCASTER, CHIEF, NATURAL RESOURCES CONSERVATION SERVICE, 
                 U.S. DEPARTMENT OF AGRICULTURE

    Mr. Conner. Thank you. Thank you, Chairman Harkin, 
Chairwoman Landrieu, and Senator Vitter. I am pleased to be 
here today to share with you the Department of 
Agriculture'srole in disaster response and recovery in the wake 
of the 2008 Midwest floods and, of course, Hurricanes Gustav 
and Ike.
    I am joined today by Arlen Lancaster, our Chief of the 
Natural Resource Conservation Service, and Kate Houston, the 
Deputy Under Secretary for Food, Nutrition, and Consumer 
Services. They will be available to help me with any questions 
that you may have. I also have a number of other technical 
experts that we have brought with me today in order to respond 
properly and in detail to your questions.
    This year's natural disasters did wreak havoc, serious 
damage throughout the Midwest, Texas, and Louisiana. They 
destroyed crops, killed livestock, put thousands of people out 
of their homes, and destroyed businesses. They presented a 
serious test of our Department's emergency response 
capabilities. But, ladies and gentlemen, I am here to say today 
and am proud to say today that I believe the people of USDA did 
rise to this occasion.
    Most of USDA's 110,000 employees, Mr. Chairman, live in the 
very communities where they work. And when USDA responds, it is 
often our employees helping their neighbors, their family, and 
others in their communities. This year, they applied lessons 
learned from our experiences with Hurricanes Katrina and Rita 
in 2005. They worked tirelessly and effectively to deliver 
essential services and supplies for the people who needed them 
most and to cut through bureaucratic red tape wherever it was 
possible.
    USDA, as you know, carries out a very broad range of 
missions. They range from fighting hunger through our nutrition 
programs to assuring the safety of food products through 
inspection and public education efforts, to protecting soil and 
water resources through conservation, to supporting our 
agricultural producers and managing our Nation's forests. 
Nearly all of USDA's 17 agencies have been involved in our 
disaster response efforts to some degree.
    Mr. Chairman, as you might expect, when situations like 
this arise, providing food to the victims of disasters is 
always our absolute No. 1 priority. The Food and Nutrition 
Service meets this need on two levels. In the earliest stages 
of the disaster recovery, when grocery stores and banks are 
closed, utility services are interrupted, and people are 
actually displaced from their homes, we provide food supplies 
to shelter and food banks for use in serving meals and 
restocking household needs.
    As the recovery proceeds, FNS focuses on providing Disaster 
Food Stamp Program benefits to people who may have returned to 
their homes but still may be dealing with income interruptions 
and other disaster-related financial losses. Those who receive 
the benefits must meet income guidelines, but the thresholds 
are higher than they are with regular food stamp applications.
    To date, FNS has provided nearly $192 million of benefits 
and supplements through the DFSP to 40,000 new and 19,500 
ongoing households that were victims of the Midwest flood. It 
has also provided $184 million in benefits to 490,000 new and 
over 119,000 ongoing households that were victims of Hurricane 
Gustav in Louisiana. And in Texas, some of the data that we are 
just reporting in, we have now offered benefits to 58,000 new 
recipients and over 245,000 existing food stamp households for 
additional benefits of $42 million to date as a result of 
Hurricane Ike as well. So these benefits are flowing, and they 
are flowing in a very substantial way.
    Keeping food safe, Mr. Chairman, during an emergency is 
another essential mission. Through alerts to the media and 
updates on its website, USDA's Food Safety and Inspection 
Service has kept the public informed on how to keep food safe 
during power outages. And in Texas and Louisiana, we have also 
been handing out packets of information on food safety at key 
distribution points. This is the packet. We brought a few of 
these here today for you to have as a visual so that you can 
understand the type of communication that we are having with 
people that are adversely impacted in these situations who need 
to know what food is safe to eat and what is not.
    As important as they are, food supplies and food safety 
issues are only part of our overall response to these 
disasters. We have also been working to help the victims of 
these disasters restore damage done to crops, roads, homes, and 
infrastructure.
    In the States affected by the Midwest floods, the Natural 
Resource Conservation Service and the Farm Service Agency have 
already started distributing Emergency Watershed Protection 
funds and Emergency Conservation Program funds to restore 
damaged water management structures, farmland, and conservation 
projects. We expect to receive more EWP and ECP claims from 
Texas and Louisiana and other States as we move further into 
the recovery phase of our response to Hurricanes Gustav and 
Ike, and we will be talking to Congress about the funding for 
these programs.
    To properly assess the situation, of course, it always does 
help to spend a lot of time on the ground. In June, Secretary 
Schafer got the chance to see the aftermath of the Midwest 
floods firsthand when he joined President Bush and Senator 
Harkin in Iowa. I also had the opportunity to see conditions in 
my home State of Indiana. More recently, Nancy Johner, our 
Under Secretary for Food and Nutrition, visited Louisiana to 
see how the recovery efforts were going following Hurricane 
Gustav, particularly as it related to the nutrition side of 
that equation.
    We have also been in close touch with State officials. Last 
week, Secretary Schafer and I met with Dr. Mike Strain, who 
will testify before you later, Louisiana's Commissioner of 
Agriculture, and we have also met with Texas agriculture 
officials to discuss how we can work together to expedite the 
recovery from Hurricanes Gustav and Ike.
    Our initial responses to these two hurricanes reflects the 
lessons that we learned from the Federal response to Hurricanes 
Katrina and Rita 3 years ago. We determined that advanced 
planning and prepositioning of people and equipment and 
enhanced training of State and local emergency response 
personnel could all do a great deal to improve the outcomes 
from those damaged by the catastrophic storms.
    The Forest Service, of course, has deep experience in 
managing the logistical and supply challenges involved in 
fighting wildfires under emergency conditions. We drew upon 
that experience by prepositioning some 600 Forest Service 
personnel throughout the Southeast so that they would be ready 
to respond immediately to the anticipate hurricanes and 
tropical storms. That group included Incident Management Teams 
and other emergency specialists who provided direct support to 
the FEMA command centers.
    We also include five 50-person saw crews who tackled road 
clearing and debris removal throughout Texas and Louisiana. One 
of those crews, as an example, was able to clear the only road 
open on Galveston Island to the Galveston Medical Center, 
making medical services accessible in one of the hardest-hit 
areas from Hurricane Ike.
    And our response has not been solely programmatic as well. 
Our people have gone the extra mile to find a way to help. 
Whether that means scrambling to get out in a boat or up in a 
helicopter to find stranded livestock or figuring out the best 
way to shelter stranded companion animals, we have been 
resourceful in simply getting the job done.
    On a person-to-person basis, there have been innumerable 
examples of how our emergency personnel have helped, ranging 
from providing emergency ice to an elderly man in Texas whose 
insulin was on the verge of going bad, to helping a daughter in 
Chicago figure out how to help her mother in Houma, Louisiana, 
after she had tried to make contact with her mother and was 
unsuccessful in doing so.
    Because of the planning and prepositioning that has been 
done by many USDA agencies and their close coordination with 
our partners in State and local government, our response effort 
to these recent disasters has been rapid and, I believe, 
carefully targeted.
    That is not to say, Mr. Chairman, that there are no 
glitches or unforeseen events. That is always the case. But 
extensive preparation work helped us bypass many of these 
logistical and bureaucratic hurdles that have hampered us in 
the past.
    USDA's overall response has been greatly aided by our 
centralized Homeland Security Office. This office was created 
by Secretary Ann Veneman shortly after the 9/11 attacks. In the 
years since, it has worked to break down agency barriers and 
build a unified Department-wide team to respond to disasters. 
It also works closely with FEMA in planning and training 
activities. The Director of the office, Sheryl Maddux, is here 
today, and I would like to thank her for all she has done to 
get us in shape for the tests that we have faced this year, and 
they have been substantial tests. Sheryl is a career 
professional, and she now heads an office that is staffed 
entirely by career professionals who report directly to the 
chief of staff. They do great work, Mr. Chairman. We are glad 
to have her on board, and with that, Mr. Chairman, let me 
please answer any questions that the Committees may have for 
me.
    [The prepared statement of Mr. Conner can be found on page 
49 in the appendix.]
    Chairman Harkin. Thank you very much, Mr. Secretary.
    I have one question for each of you, and most of it has to 
do with rules. Mr. Conner, there was some confusion this summer 
out my way on some of the new provisions in the farm bill on 
the new disaster program. We contacted you. You were very 
helpful in getting that straightened out, and I appreciate that 
very much. But where are we in getting the draft rules for the 
new disaster program that was in the farm bill? Where are we on 
getting--can you give us some idea how soon we are going to be 
able to see some of the draft rules for farmers to take a look 
at?
    Mr. Conner. Senator Harkin, that is a great question. Let 
me just say that relative to the SURE Program, our people 
within the Farm Service Agency are working very, very 
diligently. And this is a key part of our disaster response. 
This is money that is there, that is available; and such sums 
as necessary have been provided to meet the disaster 
requirements for those producers who qualify and have an 
eligible disaster loss, which I believe is triggered at 30 
percent, if I am not mistaken, in that.
    In this case, though, Mr. Chairman this is also a brand-new 
program.
    Chairman Harkin. That is right.
    Mr. Conner. A program that we have never offered anything 
like this before within the Department of Agriculture. It is 
based off of crop loss for the entire farm of that operation 
for all crops.
    Chairman Harkin. Right.
    Mr. Conner. Regardless of the location of those crops. If 
you have a farm that is spread out, some in the disaster area, 
some not, we have to take into account all of the income, all 
of the revenue from all of those crops. And that can be a very 
diverse situation. We were talking this morning in preparation 
for this. We insure, we believe, over 400 different crops, and 
some of those crops, we do not even have an accounting for in 
terms of income and prices for those crops, and we are going to 
have to create that in order to implement this new SURE 
Program.
    Bottom line, Mr. Chairman, is we are working hard. I do not 
want to leave you the impression that those regulations are 
imminent. They are going to be coming as quickly as possible. 
They will be available. Farmers who have losses in 2008 will 
qualify for payments under that particular program. But I would 
note as well, just in the interest of full disclosure, that the 
statute requires us to base our determination of payments off 
of income from the season average price associated with those 
crops on that farm.
    In corn, for example, the 2008 crop, we are just beginning 
the crop marketing year for corn. And we will go the full year 
for marketing of the 2008 corn marketing year.
    Chairman Harkin. Right.
    Mr. Conner. And so it will be a full year from now before 
you would actually have the price data on corn alone to make 
the determination to issue the payment under the SURE Program.
    Chairman Harkin. Thank you.
    Ms. Houston, from speaking with people involved in the 
disaster recovery efforts in Iowa, I first want to thank you 
for the good work that USDA did there. Most everyone I talked 
to in communities I met with were very pleased with the way 
that USDA worked with local communities and the county offices 
to get the Disaster Food Stamp Program up and running. So I 
just want to thank you for that, although I noticed long lines 
of 500 to 600 people in Houston, and hopefully you are going to 
be doing something about doing more in the future to anticipate 
500 or 600 people standing in line. It can be very frustrating 
and debilitating when you have lost your home and everything 
else. So I hope you are going to be looking at ways of 
addressing that in the future, too.
    That did not happen in Iowa. I just saw that in Houston.
    Ms. Houston. We certainly recognize that, particularly on 
the initial days of the Disaster Food Stamp Program getting up 
and running, there can be a number of logical challenges 
because everybody wants to kind of get there and get their 
benefits. There are a number of things that we can do in 
partnership with States to try to alleviate some of those 
crowds. Certainly pre-planning to make sure there are an 
adequate number of sites, an adequate number of trained 
eligibility determination workers can really help in those 
first few days, as well as communication with the public about 
the number of days that the sites will be open so that they 
understand they do not all need to get there on the first day.
    We have also worked with States to identify some 
appropriate waivers that can help to create some flexibilities 
in the way the system operates, and hopefully those create some 
expediencies. For example, in Texas and in Louisiana, we 
recently approved a waiver that allows potential applicants to 
call ahead into a phone center, provide their information, do 
as much of the intake over the phone, and then when they show 
up at the site, they just have to do some quick verification on 
the back end, and they can walk away with their card. We have 
seen that as one example as a way that we have really been able 
to minimize the crowds in the last few days of the operation of 
these centers.
    Chairman Harkin. Very good. Thank you very much.
    Mr. Lancaster, I know it does not have anything directly to 
do with disaster response, but NRCS is now past the statutory 
deadline of when the regulations on the Conservation Title of 
the recently passed farm bill were supposed to be out. The 90-
day period expired on September 16th, and the transition period 
we included in the Conservation Title expires on September 
30th. Where are the regulations? And instead of addressing 
this, you might for the record tell us what programs will not 
be able to function as of October 1st without new regulations 
in place.
    Mr. Lancaster. Mr. Chairman, certainly we are working, as 
the Deputy Secretary indicated, as diligently as possible on 
all our rules to make them available to producers in fiscal 
year 2009. Of our rules, they are in various stages of 
clearance within the administration and within USDA.
    Our expectation is that we will be able to offer most of 
these programs again in fiscal year 2009, most of them in 
calendar year 2008.
    Some programs, like the Conservation Security Program, we 
are working, and it is more likely that a program like that 
would be--the rules would not be completed until calendar year 
2009 because of the complexity of a brand-new program, 
essentially.
    We are working with our Office of General Counsel on what 
provisions require a rule in order to offer the program and 
whether or not we can offer and hold sign-ups for a number of 
these programs prior to the rule being completed.
    Chairman Harkin. But, again, would you for the record 
provide for us, since obviously the rules are not going to be 
done by September 30th or October 1st, provide us for the 
record what programs would not be able to function as of 
October 1st without these new regulations in place, if any?
    Mr. Lancaster. Mr. Chairman, we will certainly do that for 
the record. We will consult with our Office of General Counsel, 
and, again, some of them we may be able to offer initially and 
hold those sign-ups because the rules are specific to how we 
operate on implementation rather than the sign-up with those 
producers.
    Chairman Harkin. I appreciate that.
    Chairman Harkin. I recognize now the Chairman of the 
Subcommittee on Disaster Recovery of the Senate Committee on 
Homeland Security and Governmental Affairs, Senator Landrieu.
    Senator Landrieu. [Presiding.] Thank you.
    Mr. Secretary, if you could just clear up just a couple 
things in your testimony. One, you said that after 9/11 there 
was a disaster relief coordination effort within the 
Department. Who is in charge of that effort right now?
    Mr. Conner. Sheryl Maddux.
    Senator Landrieu. Sheryl Maddux. And her title is?
    Mr. Conner. This is Sheryl Maddux.
    Senator Landrieu. So Sheryl is here. Sheryl, what is your 
title?
    Ms. Maddux. Director of Homeland Security Office.
    Senator Landrieu. OK. And you are in charge of agriculture 
disasters, trying to coordinate ag disasters since 9/11?
    Mr. Conner. Sheryl's responsibility, obviously she 
coordinates among our 7 mission areas within USDA, but then she 
directly interfaces with the Department of Homeland Security 
and their operations as well, and the FEMA personnel.
    Senator Landrieu. OK. Because I am wondering if the 
Secretary is going to declare our State an agriculture disaster 
or not. And if not, why? If so, when? And I do not know if you 
want to respond to that.
    Mr. Conner. Yes, let me take a shot at that, Senator 
Landrieu. We have got that paperwork within the agency. I 
believe--I can be corrected here by some of our folks, but I 
think that it would represent the entire State of Louisiana in 
terms of a disaster area. You have already recieved a 
Presidential disaster declaration. In order for us to give you 
a secretarial disaster declaration--and this is significant 
because in order to be eligible for the SURE payments that I 
was discussing with Senator Harkin, you have to have not a 
Presidential but a secretarial designation. That paperwork is 
coming in now. We are still waiting on some of the loss 
assessments that we need from the local personnel to make that 
decision. But it will be forthcoming, and it is going to be 
forthcoming in a very timely way. Our folks have dealt with 
this. They approve these things almost on a daily basis, and 
those disaster declarations will come in for the State of 
Louisiana in a timely way and----
    Senator Landrieu. OK. Well, let me just----
    Mr. Conner [continuing]. Well ahead of what you are going 
to need in order to qualify for those SURE payments.
    Senator Landrieu. Well, that is good news and bad news. I 
mean, of course, we would rather have a declaration than not. 
But I understand that you just testified that the regulations 
for the program at not written. And so how would we write 
regulations in time to get help to our farmers?
    Mr. Conner. Let me share this thought, if I could, Senator 
Landrieu, with you, and I think it addresses your point.
    Obviously, as I mentioned to Senator Harkin, under the SURE 
Program, we will provide payments in terms of crop losses----
    Senator Landrieu. I realize that, but not to interrupt you, 
Mr. Secretary, I do not mean to be disrespectful, but I need to 
ask you something.
    Mr. Conner. OK.
    Senator Landrieu. You testified just now that you have not 
really even started to write the regulations and that it 
might--and I think your quote was, ``Chairman, do not expect it 
to be imminent. It is not going to be imminent.'' So that led 
me to believe that it may take a year, maybe several months, a 
year, maybe even 2 years. You have 400 crops, you testified, in 
America that you do not even have assessments for. I can 
understand----
    Mr. Conner. If I could, Senator Landrieu----
    Senator Landrieu. Let me just finish. I can understand the 
challenge that is before you, but we have an immediate disaster 
on the ground right now, and you have testified that the 
program that we have tried to structure with our best efforts 
is not even--the regulations are not even written yet.
    So what is the Agriculture Department's response to this? 
Are you going to ask for any special help or intermediate help? 
And what can we expect from you and the Secretary?
    Mr. Conner. OK. If I could, in an attempt to respond to the 
points you have raised, on the SURE Program, I did not say we 
had not started. I indicated it is a difficult process. We have 
already literally logged in hundreds of thousands of hours to 
get ready for SURE.
    Senator Landrieu. I stand corrected. When do you think it 
will be completed?
    Mr. Conner. We will be in a position to issue these checks 
next fall in a timely way once we have the data that is 
necessary. I am not talking about 2 or 3 years down the road.
    Senator Landrieu. OK. Then that is fine. I stand corrected. 
And you said that you can maybe deliver checks next fall, but 
let me press my point here, if I could, in the time remaining. 
Next fall is too late. Next fall it too late.
    Mr. Conner. I understand that.
    Senator Landrieu. Now, the Department has some 
responsibility here, not only does Congress but the Department, 
I think, to come up with some intermediate suggestions as to 
how we might get ourselves from where we are today to where we 
are going to need to go before we have an economic agricultural 
collapse in Louisiana. And I am wondering if you have any 
suggestions today about how that might be done?
    Mr. Conner. I do, and I am going to make two points, if I 
could, to address that question.
    The first point is understand that we are already putting 
money into the system in terms of crop insurance indemnity 
payments. This fall, Senator Landrieu, we will make a record 
number of crop insurance indemnity payments, I am advised now 
estimated to be well over $5 billion for these types of 
disasters. Some of these payments have already gone out for 
those that received an early loss situation, and that is true 
in Iowa. In Louisiana, where the damage has just occurred those 
assessors are out there. Those payments will be made in a 
timely way, and I am talking weeks in terms of that money going 
out. And, again, that is going to be $5 billion that we are 
going to be putting out there into the world of crop loss 
situations.
    Senator Landrieu. But I thought----
    Mr. Conner. Also, the second part of that is in the very 
near future--and, again, within a matter of weeks, not months 
or certainly not years--within the very near future, we are 
going to be making additional payments relative to the 2008 
crop in the form of a direct payment, and that is going to be 
over $4 billion----
    Senator Landrieu. So you are testifying----
    Mr. Conner [continuing]. In a direct payment----
    Senator Landrieu. Just to be clear, you are testifying that 
within the next few weeks, you can distribute $5 billion 
without the rules and regulations in place?
    Mr. Conner. What I am saying is that the crop insurance 
system is in place. Obviously, this is a program that we 
operate with private insurance companies, with private 
adjusters. Those adjusters are literally down there in the 
fields now making those assessments. Some of those adjustments 
cannot be made until a little bit later because the harvest has 
not yet occurred on the crops that have survived down there. 
But all of that crop insurance business with the adjusters 
assessing the damage is going to be made in a timely way, and 
those payments are going to go out in a very timely way.
    You know, I am not going to nail down a time because, to 
some extent, that is an issue between the farmer and his 
insurance company. But the resources are there, and those 
payments are going to go out soon.
    Senator Landrieu. Well, let me just say for the record, I 
appreciate your attention, but I believe strongly that the 
current insurance program is not at all adequate for what our 
situation is in Louisiana. And it may not be adequate for 
agriculture disasters going on in Texas or in Iowa or in other 
parts of the Midwest. But I do not want to speak for those 
States. But for Louisiana, that insurance program is wholly 
inadequate, and the new one that we struggled for years under 
the jurisdiction of this Committee to try to put in place, the 
regulations, you have testified, have not been completed and 
will not even be available until next year.
    So I am going to conclude my 5 minutes by saying that I 
really hope that you will consider, once you have heard the 
testimony from our Agriculture Commissioner and others, 
something that can be done more immediately and substantial to 
help out not only our farmers but our bankers, our grain 
elevators. And I thank the Chairman.
    I would like to call--I think the Chairman is out--on 
whoever the next questioner is in order of appearance. Senator 
Vitter?
    Senator Vitter. Thank you, Senator.
    Mr. Secretary, again, I want to encourage the call for a 
secretarially-declared ag disaster for the entire State of 
Louisiana. You outlined why this declaration is necessary and 
important. Our Governor, Governor Jindal, has requested it for 
the entire State.
    Mr. Conner. Yes.
    Senator Vitter. I know assessment teams are on the ground. 
But the sooner that can happen, the better.
    I apologize if I missed it, but did you have an approximate 
timetable you expected that decision within?
    Mr. Conner. Well, Senator Vitter, I did not. But I will 
tell you, I will commit to you and to Senator Landrieu that the 
Washington review of those assessments that are coming in from 
the field will not hold up that process. We will turn those 
around almost immediately, as soon as we get them in from the 
field, and we will not hold them up.
    Senator Vitter. Right. OK. And, obviously, the assessments 
on the ground need to happen quickly, too.
    Mr. Conner. Absolutely.
    Senator Vitter. So if you can push that through the 
pipeline.
    The second quick issue, crop insurance deadlines for sugar. 
Right now that is September 30th, and you still have fields 
underwater. You still have folks dealing with very difficult 
situations. Can an additional 30 days be granted for that sign-
up in light of the disaster some folks are still in the midst 
of?
    Mr. Conner. Senator Vitter, the short answer to your 
question is I do not think that is going to be possible. This 
is a crop insurance program where we underwrite private 
insurance, and we subsidize the premiums for that insurance, 
but it is a privately operated insurance program. And if we 
allowed people to sign up for this program after a disaster 
occurs, I venture to say, Senator Vitter, next year we would 
have no companies offering crop insurance. They would not--
cannot insure and allow them to get in after a disaster has 
occurred. No one would sign up ahead of time if that were the 
case. We currently have 17 companies offering crop insurance in 
your region, and it is a very competitive environment. We want 
that competition out there for the sake of the farmer. I do not 
think we would have it if we let them insure after a disaster.
    Senator Vitter. Let me back up, because maybe I am missing 
something. The current deadline is September 30th.
    Mr. Conner. Yes.
    Senator Vitter. So that itself is after----
    Mr. Conner. Are you talking about the reporting of the 
loss, Senator?
    Senator Vitter. No. I am talking about sign-up.
    Mr. Conner. Sign-up for the actual insurance.
    Senator Vitter. For the program. And I am just talking 
about the fact that the current deadline is after Ike, so it is 
not a question of moving a deadline from before an event to 
after an event. It is a question of the current deadline being 
September 30th and folks still being in the midst of enormous 
losses and clean-up and extending that deadline, again, with no 
intervening disaster. I believe that has happened in other 
cases.
    Mr. Conner. OK. I am going to say something, and then if I 
am wrong on this, I am going to ask my staff to correct me, 
because I may well be wrong on this, Senator. I believe the 
actual requirement on whether or not you are going to have 
insurance, that time has already come and gone. I believe that 
September 30th is the deadline for reporting a disaster on 
that.
    For 2009, OK, that is September--so for 2008 the loss has 
already occurred, you have already had to make a decision 
whether to be----
    Senator Vitter. I am talking about next year.
    Mr. Conner. For next year, OK.
    Senator Vitter. I am talking about just the fact that 
people----
    Mr. Conner. OK. Then I apologize.
    Senator Vitter [continuing]. Are in the midst of clean-up 
and disaster, and this deadline is coming for next year. So can 
we extend the 30 days?
    Mr. Conner. Well, I think we have got some flexibility both 
in terms of when they report their loss, because obviously some 
people are trying to get back into their home situation as 
well. Let us go back and look and see what kind of flexibility 
we may have for them to sign up for next year, because I 
understand some of these people are just trying to get their 
homes back in order. They cannot deal with this.
    Senator Vitter. Right.
    Mr. Conner. If we have got any flexibility that does not 
hurt the integrity of the program, Senator, we will try and use 
that.
    Senator Vitter. OK. That is all I am talking about, not 
moving a deadline----
    Mr. Conner. I commit that--OK. I apologize for my 
misunderstanding.
    Senator Vitter [continuing]. From before an event to after 
an event.
    A third and final quick question is crop insurance claims. 
As I understand it, the requirement is that a claim be filed 
after a producer destroys the crops involved. Again, some of 
those crops are still underwater, so the process of draining 
the field, pulling them out, destroying them is fairly 
significant. Can some flexibility be exercised so they can 
begin to make a claim now when there is obvious evidence of 
loss?
    Mr. Conner. I am going to ask for some technical assistance 
on that. Obviously, my gut instinct is if the field is 
underwater, that is a pretty sure sign that there has been a 
crop loss on this. So let us just look at that issue.
    Senator Vitter. OK.
    Mr. Conner. And if we have got any flexibility on that--
again, I understand what your point is, and they are anxious to 
file those claims, and we ought to be able to enable them to 
file the claims as soon as possible.
    Senator Vitter. If you all could just follow-up with my 
office about those specific issues, I would appreciate it.
    Mr. Conner. We will do that.
    Senator Vitter. Thank you.
    Chairman Harkin. [Presiding.] Thank you, Senator Vitter.
    Senator Grassley?
    Senator Grassley. Thank you, Mr. Chairman.
    The second question I was going to ask Senator Harkin has 
already asked, but I wanted to associate myself with the 
disaster program being implemented like yesterday. But we need 
to get it done so we can make use of it.
    The other question I was going to ask you, Secretary 
Conner, I sent a letter on September 4th to FSA Administrator 
Teresa Lasseter regarding nine counties in Iowa that had 
requested Emergency Conservation Program funds that have not 
been included in the Department's announcement of $87 million 
that would be distributed among Midwest States. First, why were 
these nine counties excluded?
    And, finally, I have heard reports that the money may be 
going out, but I have not received a formal response from the 
Department. Will those nine counties receive the emergency 
funding?
    Mr. Conner. They will, Senator Grassley. I am not sure I 
can identify exactly what happened, but there was, relative to 
those nine counties, some bad information. Those counties are 
eligible, and the payments will be going out to those nine 
counties.
    Senator Grassley. Well, when I see the FSA Administrator 
for Hardin County in church on Sunday, I can tell her she is 
going to get it.
    Mr. Conner. That is correct.
    Senator Grassley. OK.
    Mr. Conner. And I am further advised that the response to 
your September 4th letter was actually being sent today.
    Senator Grassley. OK. Well----
    Mr. Conner. You should get that in writing.
    Senator Grassley. That is very good, and that is a quicker 
response than we get from most bureaucracies around this town.
    Mr. Conner. That does not always happen, Senator.
    Senator Grassley. Thank you.
    And the next one is for Mr. Lancaster. It is a long 
question so wait until I get there. Because of the extremely 
wet spring, we have these questions, and that is the fact that 
what led up to the record flooding in much of Iowa was this 
500-year rain event that we had. Unfortunately, some editorial 
writers and experts quickly jumped on kind of a ``blame 
farmers'' bandwagon for bringing these extreme events to us 
all, and one of the Washington Post's headline was ``Man blamed 
for Iowa flooding,'' June 18th.
    How anyone can rationalize that is beyond my imagination. 
Keep in mind that most field scale practices are designed for 
10- to 25-year rain events. Larger watershed scale structures 
may be designed to handle 100-year rain events. However, these 
practices and structures were obviously not designed for 500-
year rain events, and there was severe damage. The Iowa 
Department of Agriculture initially put the damage estimate 
conservatively to grassed waterways, terraces, et cetera, at 
approximately $40 million. But officials from my State tell me 
where good conservation practices and systems were in place to 
protect agricultural land, homes, and infrastructure, they were 
doing a very good job. And I think Senator Harkin saw that as 
we traveled by helicopter over Iowa back in June when the 
floods were hitting. The challenge is to get more working 
conservation on land where it is most needed and will provide 
the most benefit given our limited resources.
    Therefore, in the long run, how can the Federal Government 
best help my State do this, that is, target conservation 
practices to critical needs?
    Mr. Lancaster. Senator, Chairman Harkin raised this point 
certainly in his opening statement, the fact they did 
conservation practices, have an ability to mitigate the effects 
of natural disaster, be it flooding or drought. The ability to 
have a more resilient soil that serves as a better drainage 
system for that is certainly important.
    I will say that the tools that Congress has provided in the 
2008 farm bill for conservation are the types of tools that we 
need to implement these programs on the ground. In working with 
our partners, with the Soil and Water Conservation Districts, 
delivering programs like the Environmental Quality Incentives 
Program where we are providing cost-share and incentive 
payments to producers to implement these practices, that is a 
tremendous tool and one that is very important in Iowa.
    What I cannot understate, though, is the importance of 
other programs like the Wetlands Reserve Program where you 
create buffers from flooding, where you provide a filter 
system, riparian buffers and others. And, again, I believe that 
the tools that Congress provided in the 2008 farm bill are 
broad enough that we can address each of these concerns, and 
the way we implement it is through our partnership with State 
agencies through Conservation Districts and, importantly, by 
helping producers develop a good conservation plan at the 
forefront so they can identify what resource concerns they want 
to protect and how best to do that.
    Senator Grassley. Mr. Chairman, I do not have questions for 
these two witnesses, and we do have two Iowans, Lyle and 
Barbara, on the program. I have got some questions I am going 
to have to leave in writing for them to answer, unless you want 
to ask them for me, because I have got to go to another 
meeting.
    Chairman Harkin. Whichever you would like, I would be glad 
to do whichever.
    Senator Grassley. OK. Well, let's just wait and see how 
things work out.
    Chairman Harkin. OK. Thanks.
    Senator Grassley. And I welcome Lyle and Barbara.
    Chairman Harkin. Thank you, Senator Grassley.
    Senator Thune?
    Senator Thune. Thank you, Mr. Chairman, and I want to thank 
our panelists today, too, for all their assistance in dealing 
with past disasters. Many of you have been involved and played 
critical roles in helping us develop programs to respond to 
past natural disasters and are now playing, of course, a 
critical role in helping to improve Federal programs for future 
events. And I think all the floods and the hurricanes and the 
disasters we have dealt with this year are obviously going to 
create a great need for the type of assistance that I think is 
now available under the permanent disaster program.
    As you all know, we deal with disasters in our part of the 
country, too, generally more along the lines of drought. But 
whether it is indemnity payments or Emergency Conservation 
Programs or impacted landowners or emergency food assistance to 
local food banks, these Federal programs are critically 
important in terms of disaster response. And so we appreciate 
the important role that you play, and it is our responsibility, 
obviously, to make sure that these programs work in the way in 
which they were intended and that they are available when they 
are needed.
    A lot of the disasters that strike are outside the control 
of agricultural producers. And as I said, in the Upper Great 
Plains, they are expected. We know we are going to have 
droughts from year to year, an occasional flood. Unfortunately, 
the assistance to recover from these events is not always as 
reliable, but we work to, I think, eliminate the ad hoc 
disaster assistance programs that we have been dealing with the 
past few years and created some permanent disaster relief, 
which we hope will make those programs less dependent upon the 
political currents up here and a little bit more predictable 
for our producers.
    I do want to ask a question--and some of them have been 
touched on already--on those programs, and then I want to come 
back to one other question I have on another program. But the 
whole issue of 2008 losses and sign-up period is September 
16th, I think. Senator Grassley and I have a bill that would 
allow for advance payments to be made for 2008 losses and also 
that would expedite the rulemaking process for the new program 
so that it is completed this year as opposed to 2009.
    But I guess I would be curious in your response with regard 
to losses this year, the sign-up period, and whether or not--
the question was asked that sign-up period might be extended, 
and even whether or not the sign-up period for the 2009 crop 
year might be extended based on the fact that we do not have 
regulations in place. And I guess I would like to get a 
response, too, about the whole idea of in the past advance 
payments have been available to producers for this crop year. 
If they do not get that payment until the next crop year, you 
miss in some respects the window or the timing or the 
opportunity to make that assistance meaningful to them as they 
planting decisions for next year.
    The question on advance payments for crop disasters that 
occurred this year, crop losses that occurred this year, and 
then, second, flexibility, again, on sign-up for the new 
program given the fact the regulations are not in place.
    Mr. Conner. OK. Senator Thune, as you know--and I think I 
am addressing your question here--we have issued 22 percent of 
the advanced direct payment to the producers already, and the 
remainder of that payment will be forthcoming pretty quickly. 
There has been discussion of issuing future advance payments to 
producers for the 2009 crop once they sign up, which we will be 
starting relatively soon. The statute does, again, spell out 
for us the amounts of that advance payment, and so we--unlike 
past farm bills, where we had a little bit of latitude it is 
locked into statute in terms of how much of that advance 
payment we have to give producers and when they get it. So that 
would require a statutory change if that were to be altered in 
any way, because that 22 percent and the remaining payments 
after that are part of the statute.
    Senator Thune. So for 2008 losses, 22 percent payments, 
advance payments, have already been made. And the balance then 
would be made still in this calendar year?
    Mr. Conner. This is the direct payment, so, remember, it is 
not directly tied to losses themselves. I mean, this is the 
payment that everybody gets.
    Senator Thune. Right. OK.
    Mr. Conner. That is correct. The balance would be made.
    Senator Thune. All right. And with regard to sign-up 
periods on the--the regulations are not in place yet for the 
new program.
    Mr. Conner. Right.
    Senator Thune. You indicated that, where Louisiana was 
concerned, you might have some flexibility with regard to sign-
ups. Would that also be true for other parts of the country?
    Mr. Conner. Yes. I mean, if I understood Senator Vitter's 
question correctly, that sign-up was specifically for the 2009 
crop crop insurance program. I would expect us to start sign-up 
for the acre claims--I mean, in effect, I guess in some ways 
sign-up has already begun in that way because the statute 
specifically required that you had to have crop insurance in 
place.
    Senator Thune. Crop insurance or NAP, right.
    Mr. Conner. Or NAP in place in order to qualify for the 
SURE payment. Obviously, that came after farmers had made their 
decision on the 2008 crop, so the statute required us to have 
this buy-in situation for producers for the 2008 crop. That 
sign-up has come and gone. We have demonstrated some 
flexibility on that sign-up for the buy-in because we----
    Senator Thune. And that is on the September 16th deadline.
    Mr. Conner. Yes, that is on the September 16th deadline. I 
think for those disaster areas like Louisiana--and there may be 
other parts of the country on this--we have given them 
additional time look, we can be a little bit flexible on that. 
The statute gives us that flexibility, but it does require a 
buy-in payment in 2008 in order to be eligible then for those 
SURE payments that are going to come on down the road later on.
    I do want to make one point on SURE as well, and I was 
reminded of this by some of the folks behind me. You know, 
there are parts of the farm bill, Senator Harkin, that require 
us to, in effect, bypass the normal rulemaking process in order 
to get these programs administered quickly. But the statute is 
very clear on which provisions we can do that for and which we 
cannot.
    The SURE Program, we are not authorized to do expedited or, 
if you will, what I would call a short-circuited rulemaking 
process. We have to go to a proposed rule. We will obviously 
have to take comments on that proposed rule, and then 
ultimately go to a final rule in that process as well.
    So again, I say that, Senator Landrieu, in great 
appreciation for your need to get this thing rolling so the 
producers can count on that. There is a process, though, that 
by law we are going to have to go through on that, and that is 
probably a good process. Again, this is a brand-new program. 
You know, we need public input to make sure we are doing it 
right.
    Senator Thune. When is the end line for that? You are 
talking to get through the process and----
    Mr. Conner. Well, we have not published the proposed rule 
yet. We will at some point in the not too distant future and 
then seek comments probably 60 days' worth of comments on that 
proposed rule before going final.
    Senator Thune. Are we going to be well into 2009, do you 
think, or is this like early 2009?
    Mr. Conner. I would not say--it will not be well into--if 
it is well into 2009, we could not get final before next fall. 
So I would not say it is going to be well into 2009.
    Senator Thune. I have, if I could, Mr. Chairman, another 
question related to the disaster program, but I want to ask 
just very quickly another----
    Senator Landrieu. Senator, Senator, just one more question 
because we have got to get to the other panel.
    Senator Thune. OK.
    Chairman Harkin. We have another panel.
    Senator Thune. All right. Thank you. Thanks. OK. All right. 
This has to do with the--this is not the permanent disaster 
program, but it is another new program, and that is the ACRE 
Program in the farm bill.
    Mr. Conner. Yes.
    Senator Thune. And the question about which crop years are 
going to be included in determining national price. I am 
wondering if USDA has made a decision with regard to that yet. 
We obviously have contended that it should be the 2007-08 crop 
year, which, as I understand it, is what CBO used in its 
calibration. USDA has indicated they might use an earlier crop 
year, and, of course, that makes a big difference to our 
producers. Has there been a decision made?
    Mr. Conner. There has not been a decision made on that, 
Senator Thune. You know, in the interest of time, perhaps I 
will withhold kind of the dilemma we find ourselves in and what 
we are weighing in that decision. But the short answer to your 
question is we have not made that call yet on which year it 
will be.
    Senator Landrieu. Thank you.
    Senator Thune. Thank you, Mr. Chairman.
    Senator Landrieu. Mr. Chairman, if I might, Mr. Secretary, 
as we end this panel, I just really need to make this point so 
that you and I have a clear understanding as your testimony 
comes to an end.
    I acknowledge that the SURE Program is going to take quite 
a while, and I also acknowledge that you could not expedite it 
if you wanted to because Congress required you to go through 
rulemaking. I am clear. But I need to make this point: That 
program, even if it was finished today--which it is not--is 
wholly insufficient for our situation. I am not asking you to 
hurry the program because it really would not help us anyway. I 
am asking you to declare Louisiana as an agricultural disaster 
and to come up with expedited, extraordinary help for an 
extraordinary situation. Are we clear on that?
    Mr. Conner. I understand that, Senator. I appreciate----
    Senator Landrieu. Thank you. And I want you just to 
consider that.
    Mr. Conner. If I could, just one quick comment because I 
think this is important as you communicate with your producers 
as well. In Louisiana, and in other States as well we have a 
large loan portfolio of producers who borrow through the Farm 
Service Agency. Credit is going to be a key issue going 
forward, and we have loan guarantee programs that are capable 
of helping out in this circumstance. We have already dispatched 
some teams to your State and to other regions for those 
existing borrowers. The instructions to those teams are work 
with these producers to reschedule debt, in some cases write 
off debt where there has been a disaster so that those loans 
can work so that they can be in business for another year. We 
are very involved in that.
    Senator Landrieu. I appreciate that, and I want to get to 
this next panel, because if you hear the testimony of our next 
panel representing States that have really been hard hit, I 
think you can appreciate our situation. But I do want to submit 
for the record a letter from the Louisiana Bankers Association 
talking exactly about the credit situation. I also want to 
submit, Senator Harkin, a letter from some members of our 
delegation about the difficulties with the Food Stamp Program 
that, while we have made some progress, we have not yet gotten 
adequate response. And I do acknowledge the six-page letter 
that I received this morning. I have not been able to review 
it, but I want to acknowledge that.
    [The following information can be found on page 90 in the 
appendix.]
    Senator Landrieu. But as we call the next panel up, I want 
to just show you again, Mr. Secretary, to make this point, this 
is--and you do not have to be an expert, which I am not, to see 
this looks like some really good corn. It looks healthy and 
golden and something that anyone would want to consume.
    This is the rotten corn, basically, the damaged corn that 
has come out of our fields. And I am going to show you all 
this--this is throughout Louisiana, right before harvest, a 
bumper crop is literally being left in the field to rot. There 
is no market for it. It cannot be sold. There is a credit 
crisis in the agriculture economy. And I could show you 
soybeans, and I will put these up for our for show and tell. I 
think it is important to see it.
    And these are healthy beans, and these are rotten beans. 
The bankers and the elevators really do not know what to do 
with a crop like this. It has no value. And it is a $700 
million disaster.
    So I thank you, Mr. Chairman, and we will move to the next 
panel
    Mr. Conner. Thank you.
    Chairman Harkin. Thank you. We will dismiss this panel.
    We will call the second panel up: Dr. Mike Strain, Ms. Barb 
Prather, Lyle Asell, Wallace Ellender, Natalie Jayroe, and Jay 
Hardwick. If the second panel will please take the appropriate 
seats. Again, we will recognize the panel in the order which I 
had outlined it: Mr. Strain, Ms. Prather, Mr. Asell, Mr. 
Ellender, Ms. Jayroe, and then Mr. Hardwick.
    I will ask each of you to keep your statements to 5 minutes 
or less, and you have a clock, and somebody up here is 
operating that so we will keep to 5 minutes or less so we can 
have a discussion with you afterward. And in order to start 
things off, I would recognize Senator Landrieu for purposes of 
introduction.
    Senator Landrieu. Well, thank you, Mr. Chairman. We are 
very honored to have our Commissioner of Agriculture to 
testify. He was born and raised on a cattle farm in Covington, 
Louisiana, has a degree in veterinary medicine from LSU. He has 
been a leader in agriculture his whole life, was just recently 
elected, Mr. Chairman, as our Commissioner. He served 
previously in the legislature on the Ag Committee. So he most 
certainly comes prepared for the post that he now holds, and he 
has my confidence as he helps to lead our State through this 
difficulty.
    And may I also say we are proud to have Mr. Ellender with 
us, who has run the Sugar Cane National Legislative Committee 
for the Sugar Cane League. He is a sugar cane farmer in the 
southern part of the State, in Terrebonne Parish, which was 
very hard hit by the tidal surge that came in in the southern 
part of our State, as well as the rains that fell in central 
and north Louisiana.
    So I am proud to have both of our Louisiana guests with us 
on this panel.
    Chairman Harkin. Thank you very much, Senator Landrieu, 
and, again, we will start with Dr. Strain. Welcome.

STATEMENT OF MIKE STRAIN, COMMISSIONER, LOUISIANA DEPARTMENT OF 
        AGRICULTURE AND FORESTRY, BATON ROUGE, LOUISIANA

    Mr. Strain. Thank you. Thank you, Mr. Chairman, for 
allowing us to come here from Louisiana and speak. Senator 
Landrieu, Senator Vitter, thank you so very much. You have been 
with us on the ground as we went through these disasters, and 
also for all of your help here in D.C. We truly appreciate 
that.
    I also have with me Dr. Kurt Guidry and Dr. Mike Salassi, 
experts from the LSU AgCenter, who helped us compile data; Mr. 
Kyle McCann from the Farm Bureau, who is quite knowledgeable 
about farm programs; and Mr. Rene Simon from LDAF.
    We come to you today in a unique situation in Louisiana. We 
have in 3 years endured four major storms, and if you count 
Faye, five. The situation we find ourselves in today is that 
Faye brought unprecedented rainfall through the heartland and 
through the northeast portion of Louisiana, flooding, and an 
inability to harvest, following by Hurricane Gustav that came 
in with a great deal of tidal surge, saltwater intrusion, wind 
damage, rain, and a tremendous amount of floods, followed 
directly by Hurricane Ike with an unprecedented amount of 
water, saltwater intrusion, and increased damage. Never before, 
even with the Great Flood of 1929, has Louisiana seen total 
devastation through the entirety of its State to its 
agriculture.
    We went immediately, as soon as the winds went down, to 
begin touring the State, meeting with our farmers. We have held 
11 meetings, meeting with several thousand farmers, and a 
number of issues resounded over and over. These include in this 
year significantly increased input costs and total costs; 
inadequate crop insurance; insufficient disaster provision of 
the farm bill; farmers who have contracts with elevators and 
cannot deliver the commodity; bank liens against the partially 
filled commodity contracts; and deterioration of the grain and 
cotton quality.
    Higher input costs. Fuel and fertilizer and input costs are 
the highest on record and more than doubled since last year--
never before seen costs. Many farmers did not borrow enough to 
cover these high costs. They have used all available credit. 
Since the storms occurred just prior to and during harvest, 
many of the farmers have incurred the highest amount of costs 
they could prior to receiving dollars for their funds and are 
not going to be able to repay the lenders or suppliers.
    Inadequate crop insurance. The farm bill was signed late. 
Had the producers known that there would be a disaster program 
that was based on their crop insurance coverage levels, they 
may have made different decisions. In order to be eligible for 
the SURE Program, USDA requires farmers to purchase 
Catastrophic Insurance or the Noninsured Assistance Program. 
Due to thin margins and the high cost of buy-up coverage, crop 
insurance participation is relatively low in Louisiana and in 
other Southern States. Although a farmer may have harvested 
only a portion of his crop, he may have already surpassed the 
yield threshold.
    A farmer reported to me that he met with his insurance 
agent, and based on preliminary calculations, although he has 
more than 1,000 acres of cotton and is facing a 50-percent crop 
loss, he will only receive $3,300.
    Disaster provisions of the farm bill. Many of our crops 
will not qualify for assistance under the current provisions. 
All of the rules and regulations have not been written, and 
payments may not and probably will not be available until 
October or November of 2009. Our farmers cannot wait this long.
    Partially filled contracts. Farmers prudently but 
cautiously forward contracted a portion of their commodities to 
take advantage of prices. We were at harvest. Because of the 
substantially reduced yields, many of these contracts will not 
be fulfilled. The grain elevators expect the farmer to deliver 
on these contracts. They could refuse to pay the farmer for the 
partially fulfilled contracts. And, in addition, now the 
farmers are responsible and financially liable for the 
unfulfilled portion of the contract. That is not covered by 
insurance. These elevators have already contracted out the 
grain to the exporters. This creates a vicious cycle. The 
elevators, the lenders, and the farmers are going to have to 
work together to try to stay in business.
    Bank liens against these contracts. A farmer may have 
already partially filled his contract, but the elevator may not 
be able to pay him because the banks have first title on that 
crop. The bank that has made the crop loan to the farmer has a 
lien. This is another problem.
    Deterioration of grain, sweet potatoes, and cotton. The wet 
weather has caused the quality of the commodities to 
deteriorate rapidly, which you have seen. Many of the 
elevators, gins, and sweet potato canners cannot accept the 
commodities because of quality issues. The processors who are 
accepting the commodities will have to dock the farmer because 
of the poor conditions. What we find now is that even when we 
bring these commodities, for instance, our soybeans and our 
cotton, the elevators cannot take it. They cannot sell it 
downstream, and now we are beginning to look at dumping what we 
can salvage.
    Rice. Eighty-five percent of the harvest in North Louisiana 
has not yet been harvested. A lot of the rice now has begun to 
sprout in the fields.
    Corn. Twenty-five percent is left in the fields, and a lot 
of that is damaged.
    We have lost 50 percent of our cotton crop. The cotton that 
is left is of poor quality. The seed is of poor quality. We are 
getting calls from the gins today saying they cannot gin it. 
And, in addition, instead of receiving money for the seed, for 
the cotton seed, now the farmers are going to have to pay more 
to try to get it harvested.
    Soybeans. Most of the time, mostly based on 10 percent or 
less damage. A lot of the beans that are left are 30, 40, 50 
percent. They cannot sell them downstream. So even what is 
left, they cannot use that to fulfill the contracts.
    Sweet Potatoes. Only a few parishes are covered under 
insurance in sweet potatoes, and that coverage is based on the 
firmness on the potato. What is happening now, because of the 
anaerobic environment, no oxygen, and the moisture, we estimate 
we have lost 50 to 70 percent in the ground. We could lose the 
rest of the crop if it is harvest. The $2,000 input cost to 
plant and raise potatoes, $600 to harvest it. And if you spend 
that $600, you will get no value. The potatoes are rotting.
    Sugar cane. We have lost most of our plant cane. Only about 
10 percent is there, and yield loss at 15 percent. It is very 
important, though, that we do not increase allocation of 
imported sugar. This would be a double storm and would 
devastate our sugar industry.
    Pecans. In some areas, 75-percent loss.
    Aquaculture and fisheries, $100 million worth of damage to 
aquaculture and fisheries, not counting infrastructure.
    Overall, by and large, our farmers, ranchers, and fishermen 
need help now. We cannot wait a year. Our entirety of our State 
with unprecedented damage. We cannot bring dollars to help. Our 
entire farming economy is on the verge of collapse. We have met 
with farmers. We have looked them in the eye. They are very 
tired. They are very concerned. They are not looking for a 
handout. They are looking for a hand-up.
    We must be able to stabilize the situation to stop the 
domino effect from collapsing our economy because we now have 
to replant.
    Thank you, sir.
    [The prepared statement of Mr. Strain can be found on page 
83 in the appendix.]
    Chairman Harkin. Thank you very much, Dr. Strain, and now 
we will turn----
    Senator Landrieu. Can I just say one thing I forgot? Mr. 
Hardwick is also from Louisiana, and please forgive me for not 
recognizing you.
    I was on Jay's farm this weekend. He is a cotton farmer 
from North Louisiana.
    Senator Vitter. Mr. Chairman, let me briefly thank all of 
our witnesses. I, unfortunately, have to attend another 
meeting, but thank you all very much for your important 
testimony. We will obviously be acting immediately.
    Chairman Harkin. Thank you very much, Senator Vitter.
    Now we will turn to Barb Prather, Executive Director of the 
Northeast Iowa Food Bank. She has been in that position since 
1999. We all know Barb and all the great work she does here and 
in Iowa. But prior to that, Barb worked for 7 years at the 
Capital Area Food Bank here inst, D.C. She also developed and 
implemented and opened the Northern Virginia branch. So she has 
just been involved in food banks and operations like food banks 
for all of her adult life. She resides in Hudson, Iowa, and we 
are just delighted you are here. Thank you very much, Barb, for 
being here. Again, thank you for all the great work you do in 
our State of Iowa. And, again, all your statements will be made 
a part of the record. Five minutes, hopefully.

  STATEMENT OF BARBARA PRATHER, EXECUTIVE DIRECTOR, NORTHEAST 
                 IOWA FOOD BANK, WATERLOO, IOWA

    Ms. Prather. Thank you very much. I want to first thank you 
for giving me the opportunity to testify today on flood relief 
in Iowa and our Food Bank's response to it.
    To begin with, the Northeast Iowa Food Bank and the HACAP 
Food Reservoir in Cedar Rapids have provided over 400,000 
pounds of mostly privately donated product for disaster relief 
in Iowa. We are both members of Feeding America, formally known 
as America's Second Harvest.
    Disaster relief for us began a day after the EF5 tornado 
hit Parkersburg and New Hartford, Iowa, and traveled north 
through Black Hawk County. We were called out on Memorial Day 
to provide food and water to northern Black Hawk County. In the 
week that followed, working with various organizations, we 
provided food and water to relief workers and victims.
    Two weeks after the tornado, we felt the impact from many 
days of hard rain. On Monday, June 9th, we received a call from 
a pastor in Greene, Iowa, who informed us that the water was 
rising and there were no resources to help this small town. We 
made arrangements to bring product up there that morning. 
Greene is a community that had not used our services before.
    Here is a story of a family in Greene: They had to turn to 
the newly stocked food pantry. The husband had a good job, but 
he drives 34 miles one way each day, while the mother does in-
home day care. They lost everything in the flood. The water 
started coming up on Sunday night, and by Tuesday they had to 
evacuate their home. They had always helped the local food 
pantry, but never needed their assistance. While the family had 
flood insurance, they knew it would be a struggle to pay their 
rent and their and mortgage. They eventually applied for and 
received food stamps, but they really needed the help of the 
pantry in the meantime. As you can imagine, it was hard for 
these hard-working people to go in and ask for help, but they 
were grateful that it was there when they needed it.
    The next day, June 10th, very serious flooding hit Waterloo 
and Cedar Falls. The Food Bank was called to the Black Hawk 
County Emergency Operations Center. We did get the food up to 
Greene that morning, but a 90-mile round trip ended up being a 
240-mile round trip because the roads were all flooded.
    At the same time, we began making arrangements to secure 
our facility, which was right along the Cedar River in 
Waterloo. However, we did not get water in it, but thanks to 
local support we were able to empty the warehouse and keep the 
product on trailers for a few days.
    Throughout the week we worked with various officials all 
over northeast Iowa. We followed the Black Hawk County Health 
Department when they did their immunizations to get food and 
water to people. And later in the week, parts of Waterloo on 
the east side began to have water back-up. This is a low-income 
area, and many residents in that area had water in their 
basements.
    To highlight what we saw during the disasters, there was 
considerable press coverage about the availability of disaster 
food stamps. In the State of Iowa, over 13,000 households and 
35,000 people received them. I was extremely impressed with the 
outreach that took place, and people knew that they could apply 
for them. I believe our area did an exceptional job in regards 
to getting the word out about their availability and people 
applying for it.
    Our State staff who are responsible for TEFAP commodities 
were on the phone with us during the flood asking what type of 
extra resources we needed. I know that they were working 
closely with USDA officials. We were offered our July shipment 
in June, but we decided to hold off because we did not want to 
short ourselves on the product in the long term.
    Since last spring we have seen the amount of TEFAP 
commodity foods increase substantially due to increased support 
from USDA and the increased support from the farm bill. This 
increased funding from the farm bill is critical to our food 
bank and others in Iowa and throughout the United States. In 
addition to our continuing need for more food, we are really in 
need of additional storage and distribution funds as authorized 
in the farm bill. Increased food and fuel prices have left food 
banks in Iowa and throughout the country with a shortage of 
funds to pay for storing and distributing food to the agencies 
we serve. I want to thank you, Senator Harkin, for your 
leadership in getting that vital funding included in the bill.
    What would be helpful in the future is to be able to access 
USDA TEFAP commodities immediately rather than having to take 
our July allotment of entitlement food early, from day one of 
the crisis without having to worry about them counting against 
future shipments. We know that once the waters recede, we need 
to have product available immediately to help meet the 
immediate needs, and the future needs will be even greater as 
people work to recover from the disaster.
    To date, the Northeast Iowa Food Bank itself has provided 
over 280,000 pounds of disaster assistance product to nearly 60 
organizations. It is a small part of a much larger picture of 
what is happening and continues to happen in northeast Iowa. 
Because of the increased need because of the struggling economy 
and the impact of the disasters, as fast as the product comes 
in, it goes out. The need is there. Even before these 
tragedies, we had seen an increase of 25 percent in the numbers 
of clients our agencies have been serving. We are anticipating 
seeing even more coming through the doors of food pantries in 
Iowa this winter.
    Recovery takes many years. We are going to need ongoing 
help to help these families who are working and living on a 
limited income. With high food and fuel prices, budgets are 
already stretched, and adding a disaster to the mix does not 
help. The family I talked about is trying to do their best, and 
they will bounce back. This is just one example of many similar 
faces in Iowa.
    Please continue to help us. Thank you again, Mr. Chairman, 
for giving me the opportunity to share our experiences in 
helping to meet the food needs of people in northeast Iowa and 
Iowa following our back-to-back tornado and flooding disasters.
    [The prepared statement of Ms. Prather can be found on page 
79 in the appendix.]
    Chairman Harkin. Ms. Prather, thank you very much for that 
testimony and for all the good work you do in Iowa.
    Next we will go to another Iowan, Mr. Lyle Asell. I hope I 
pronounced that right. Mr. Asell was raised on a livestock and 
grain farm in southwest Iowa, graduated from Iowa State 
University with a bachelor's degree in fish and wildlife 
biology, had held positions as soil conservationist, district 
conservationist, biologist, RC&D coordinator, assistant State 
conservationist, for NRCS all of this in Iowa. He lives on a 
small farm near Chariton, has a partnership farm interest in 
family farms in both Mills and Pottawattamie Counties. A 
Vietnam war veteran, he and his wife Charlotte have three sons, 
and Lyle currently serves as a Special Assistant to the 
Director for the Department of Natural Resources.
    Mr. Asell, welcome to the Committee, and please proceed.

 STATEMENT OF LYLE W. ASELL, SPECIAL ASSISTANT TO THE DIRECTOR 
   OF AGRICULTURE, IOWA DEPARTMENT OF NATURAL RESOURCES, DES 
                          MOINES, IOWA

    Mr. Asell. Thank you, Mr. Chairman.
    The Iowa storms of 2008 are approaching or surpassed the 
tenth largest natural disaster in U.S. history. We have seen 
precipitation increase approximately 10 percent over the last 
30 years, and we have seen a change in the pattern of 
precipitation. This will lead to increased flooding over time.
    Farmers in Iowa use financial risk management tools very 
effectively, with about 90 percent of farmland covered through 
crop insurance at relatively high rates. However, the land 
itself is at risk and was hurt very badly during these storms.
    The primary tools that we have available to help heal these 
wounds come from the Emergency Watershed Program and the 
Emergency Conservation Program. We have a current need of $225 
million in Iowa for the Emergency Watershed Program, and this 
is growing. Sign-up continues through the end of the month for 
conservation easements on floodplains.
    As both Senators Harkin and Grassley recognized, 
conservation practices in systems work very effectively to 
reduce damages. However, the precipitation simply overwhelmed 
the systems, and so we did end up with somewhere around $40 
million in damages to conservation practices, such as grassed 
waterways, terraces, and farm ponds. We also need about $8 
million in technical assistance to help restore the damage.
    There is another $36 million in needs to repair stream bank 
erosion to help protect transportation facilities and cropland. 
The greatest need comes from the Emergency Watershed Program 
floodplain easements, with applications to date exceeding over 
$150 million. Just as homeowners often opt for a buyout through 
FEMA for the houses, we see farmers wanting that same program. 
The policy was changed following the 1993 floods and worked 
very effectively. It is very good public policy. Today we have 
over 400 farmers and about 35,000 acres that are attempting to 
enroll land in the easement program.
    This follows even record commodity price and land values, 
and it is an indication of how serious the damage is to that 
land. There is virtually no alternative that is economically 
viable for them to restore that to productive ag land.
    There are two provisions in the farm bill that, if applied 
to EWP, could be detrimental, and these are both pertaining to 
the Wetland Reserve Program. The first is a requirement that 
land be owned for 7 years before it is eligible to be enrolled 
in the program. Iowa State University's data shows that most of 
the last in Iowa is bought by existing farmers, so if you 
bought land 6 years ago, fully intending to have it in a 
farming operation, you are now going to find yourself carrying 
a debt and not being eligible for a program that is intended to 
buy out in such situations. We would suggest looking at this 
rule.
    The other one involved governmental agencies not being able 
to receive restoration assistance through the program. In Iowa, 
we work very effectively with farmers, and they are good 
business people. They understand that the easement will provide 
most but not all of the value of that property. They also 
understand that if they retain ownership, they are responsible 
for paying property taxes when there is not a source of income, 
and it will be managed for wildlife when their interests and 
their livelihood comes from managing crops and livestock. Let's 
let farmers do what they do best. Let's let others do what they 
do best.
    Time is critical. They have to be making decisions very 
soon on what to do with this land. Most of this land did not 
produce a crop in 2008. They cannot wait another season without 
knowing what to do with that land. They want to take that 
funding and move it out of a high-risk venture and put it into 
a low-risk venture. We want to help them do that.
    The other program is the ECP. They have requested $24 
million, received about $12 million. That has been disbursed 
predominantly to clear sand off of floodplains. there is a need 
for additional funding there.
    Thank you.
    [The prepared statement of Mr. Asell can be found on page 
47 in the appendix.]
    Chairman Harkin. Thank you very much, Mr. Asell, and thank 
you for all the work you do on the Rebuild Iowa board there.
    Next we go to Wallace Ellender from Bourg, Louisiana. He 
has already been introduced by Senator Landrieu, but I was just 
told that your great uncle was Allen Ellender.
    Mr. Ellender. Correct.
    Chairman Harkin. Chair of this Committee.
    Mr. Ellender. Correct. I remember visiting this room when I 
was 15 years old.
    Chairman Harkin. Oh, my gosh.
    Senator Landrieu. Well, welcome back.
    [Laughter.]
    Mr. Ellender. I wish it was under different circumstances.
    Chairman Harkin. Good to have you back, Mr. Ellender.

    STATEMENT OF WALLACE ``DICKIE'' ELLENDER IV, SOUTHWEST 
 LOUISIANA SUGAR CANE FARMER, BOURG, LOUISIANA, AND CHAIRMAN, 
   NATIONAL LEGISLATIVE COMMITTEE, AMERICAN SUGAR CANE LEAGUE

    Mr. Ellender. Thank you. Again, my brother and I formed 
Sugar Cane in Southeastern Louisiana on two farms in the 
Raceland and Bourg, Louisiana, area, which was at ground zero 
for Gustav.
    Senator Landrieu. Would you pull the mic a little closer, 
please.
    Mr. Ellender. Including the land that my ancestors settled 
in 1853. We are the only people ever to farm the land that we 
currently farm. As a child, I remember asking my grandfather 
for one of his earliest memories, and one of the stories he 
told me was a story about a stubborn dog when he was a kid that 
wanted to go on this boat ride to the barrier islands with the 
family. On one occasion they loaded up everything but the dog 
on the sailboat and sailed down to the coast, which is about 30 
or 40 miles away. The dog trotted down the side of the bayou 
all the way to the coast with them, having to ford a few 
streams, but made it to the island. Today that dog would have 
to swim 30 miles to get to the same location across open water. 
Coastal problems we are having.
    Gone are some of the barrier islands and most of the 
wetlands that served as a natural buffer from the worst storms 
that came from the Gulf of Mexico. We are losing coastal 
wetlands at a rate of 40 square miles each year. Some experts 
predict that the shoreline may move inland over 30 miles in the 
next 30 years. I hope this gives you some perspective of the 
breadth of the long-term problem our communities are facing 
when we look to the south. The ominous power of the sea when it 
surges 20 to 30 miles inland is something to behold. What the 
sea leaves behind when it retreats can be bad, but what it 
leaves behind when it stays in the fields is worse. Once 
breached, levees that held back the tide will hold back the 
ebbing waters. We tear holes in those levees to get the water 
recede, but with sea of the magnitude of Rita and Ike of 2008 
flow over the levees vast volumes of water into the lowest 
field, making our cane fields salt fields.
    But sugar cane is a hearty plant, and with good weather and 
time, the cane can rebound and produce a decent crop. 
Harvesting it will be more difficult and costly, but we can 
still hope for a mild autumn and a good price to help offset 
some of the additional costs we will incur in harvesting a bent 
and broken crop. On the other hand, we may not have enough time 
to finish planting and harvesting before winter frosts and 
freeze become a concern. Further complicating the matter, sugar 
cane is a perennial crop, and time will be needed to determine 
whether fields holding surge water for extended periods will 
recover for next year's crops.
    The worst damage that occurred to the sugar cane fields 
from Gustav occurred in Terrebonne, Assumption, Lafourche, 
Ascension, Iberville, West Baton Rouge, and Point Coupee 
parishes. The northeastern corner of the eye of the hurricane 
caused the worst stalk breakage, but this damage occurred 
virtually everywhere in the belt. The cane varieties that tend 
to produce higher tonnage suffered more breakage than lower-
yielding varieties, and the brittleness of the higher-yielding 
varieties will make cutting the cane very problematic.
    Hurricane Ike's eye stayed to our south as it moved into 
Texas, but this meant that the counterclockwise winds drove the 
sea surge deep into the Louisiana cane belt in a manner eerily 
familiar to those of us who experienced Hurricane Rita in 2005. 
In some areas, the damage was worse than Rita. From my farm in 
Bourg, across Terrebonne, St. Mary's, Iberville, and Vermillion 
parishes, levees were topped, and standing water still remains 
to this day.
    As a general rule, we keep a field in production, using the 
existing root systems, for 3 years and, after harvesting the 
third crop, let that ground stay fallow for nearly a year 
before replanting. This generally occurs in August and 
September. But the rainy weeks before Gustav came left us way 
behind in our planting, so there is less newly planted cane to 
be lost to the surge. This may sound like good news, but the 
delay in planting increases our risk of not being able to plant 
some of the fields before winter sets in. These fields are 
planted this fall for next year's crop. This delay also has the 
potential of pushing harvest deeper into the winter months, 
when a heavy frost or freeze damage can destroy whatever cane 
is left in the fields.
    In order to increase our chances of getting new growth from 
the damaged cane we will be planting over the next few weeks, 
we will use more acres of our mature cane as seed for the 
fallow ground. In my case, this means I will use 260 total 
acres to plant the 800 acres necessary for my farm. I typically 
use only 160 acres. This means that I have 100 acres that will 
not go to the process that I will be planting in the ground for 
next year.
    You have asked about my experience with crop insurance as a 
disaster assistance tool. Our growers have traditionally had 
access to only one type of crop insurance policy, the Actual 
Production History program. The costs of the APH buy-up 
coverage have been prohibitively high, as USDA's Risk 
Management Agency acknowledged this past year when it lowered 
APH rates in response to potential competition from farmer-
developed GRP policies. While the rates are lower, the buy-up 
coverage has not been seen as reducing our actual risks by a 
sufficient amount to make the added expense worthwhile for most 
of our farmers.
    Despite the destructive natural forces that are sometimes 
unleashed against it, the sugar cane plant is a hearty 
survivor, and catastrophic production losses, meaning losses of 
greater than 50 percent, are rare. Since 1995, when Louisiana 
sugar cane participation in crop insurance went from $2 million 
in liability to over $61 million, the cumulative loss ratio has 
been approximately 0.17. Since 90 percent of our policies are 
the basic catastrophic coverage, which has been a prerequisite 
for disaster assistance eligibility in the past, this loss 
ratio can conceal significant losses to a farmer's bottom-line.
    The new permanent disaster assistance program included in 
the 2008 farm bill has not been implemented and regulations 
explaining how the Department will administer the program are 
still under development. As I understand the Supplemental 
Revenue Assistance Program, SURE, it provides payments to 
producers in disaster counties based on the crop insurance 
program. Regrettably, we have been unable to find an accurate 
SURE calculator for sugar cane to gain a better understanding 
of the actual assistance that might be available to farmers, 
but the poorly performing crop insurance program it will be 
built upon would seem to reduce its effectiveness as a 
hurricane assistance program.
    Congress, though, has developed a disaster assistance 
mechanism that works. In response to the 2002 and 2005 
hurricanes, Congress developed a delivery mechanism for ad hoc 
assistance to sugar cane growers in Louisiana that is tailored 
to the types and levels of damage associated with hurricanes 
and cane fields. This mechanism targeted a portion of the 
overall package to address losses and costs from planted cane 
that was lost to the hurricanes. Another portion of the package 
was designated to offset some of the increased planting costs 
and harvesting costs that we incurred. A final portion was 
allocated to address yield losses and other sector-wide losses.
    Congress was able to link the bulk of the assistance 
directly to the specific losses or costs of the hardest-hit 
producers in our area, while reserving a portion to address the 
yield losses that virtually every producer absorbed.
    I will try to conclude here.
    In conclusion, Louisiana has been growing sugar cane 
commercially for well over 200 years and has received 
agriculture disaster assistance twice over more than 200 years 
of production. The fact that both of those assistance packages 
were made necessary by intense hurricanes in this decade is a 
direct result of the rampant coastal erosion. Unless we invest 
in energetic coastal efforts soon, my farm may be beachfront 
property in a few short years before slipping quietly beneath 
the waves.
    Thank you, and I am sorry I went over my time.
    [The prepared statement of Mr. Ellender can be found on 
page 59 in the appendix.]
    Chairman Harkin. Thank you very much. Thanks for the 
pictures you applied, too. It kind of brings it home as to what 
you are talking about.
    Mr. Ellender. Yes.
    Chairman Harkin. Thank you very much, Mr. Ellender.
    And now we will go to Natalie Jayroe, joined Second Harvest 
Food Bank of New Orleans as President and CEO in January of 
2006. Currently, Natalie is a founding member of the Louisiana 
Food Bank Association and co-chair of the Food Policy Advisory 
Committee of New Orleans City Council.
    Again, welcome again to the Committee, Ms. Jayroe, and 
please proceed.

  STATEMENT OF NATALIE JAYROE, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, SECOND HARVEST FOOD BANK OF GREATER NEW ORLEANS AND 
                ACADIANA, NEW ORLEANS, LOUISIANA

    Ms. Jayroe. Thank you, Mr. Chairman. I really appreciate 
the opportunity to address you today. I just wanted to mention 
that we are the Food Bank of Greater New Orleans and Acadiana, 
covering all 23 parishes of the southern part of the State.
    Disaster preparedness and response have always been a part 
of the mission that we plan for and train for while we are 
responsible on a daily basis for the distribution of USDA TEFAP 
commodities. In Louisiana, over the last 2 years, the five food 
banks of the Louisiana Food Bank Association have strengthened 
their relationship with the Governor, the Louisiana 
Commissioner of Agriculture, and the State legislature. 
Together we have developed a model for public/private 
partnership that in fiscal year 2008 allowed food banks to 
purchase almost 10 million pounds of food from Louisiana 
farmers, fishermen, and vendors to distribute to people in need 
throughout all 64 parishes. We enjoy a very good working 
relationship with USDA and FEMA regionally and nationally.
    During the aftermath of Hurricanes Katrina and Rita, TEFAP 
commodities were released for disaster distribution. In my 
opinion, many lives were saved as a result. Second Harvest Food 
Bank became the largest food bank in history overnight, 
distributing 8 million pounds of food in September 2005 alone. 
Since that time, Second Harvest has distributed more than 90 
million pounds of food to more than a quarter of a million 
individuals throughout our 23-parish service area.
    Last year, the increase in food and fuel costs along with 
the decrease in USDA commodities available to food banks left 
many of us seriously short of food. For instance, the 7 million 
pounds of USDA commodities distributed by Second Harvest in 
2004 dropped to 2.7 million in fiscal year 2008. The successful 
passage of the farm bill last year has greatly improved the 
supply of TEFAP commodities to food banks, and I would like to 
thank Senators Harkin, Landrieu, and other members of the House 
and Senate Agriculture Committees for your leadership of that 
effort.
    Prior to Hurricane Gustav making landfall and in the 
immediate aftermath, we sought to preposition disaster foods 
and later order replacements for our depleted warehouses. 
Finally, after working through a number of procedural glitches 
with the help of the Governor, FNS regional office, and State 
agencies, we were able to order food for disaster distribution. 
We were very grateful for the supplies that we received. 
However, with the implementation of the emergency food stamp 
program, further orders were not processed.
    The system set up to distribute emergency food stamps was 
immediately overwhelmed by the number of people who needed 
relief. Governor Jindal has taken quick and effective action to 
correct the deficiencies in this system. However, as of this 
date, people are still lining up to receive benefits. We need 
to be able to provide Federal commodities along with privately 
donated foods to hungry people to tide them over until their 
food stamp benefits become available.
    Hurricane Ike passed through the Gulf of Mexico on its way 
to landfall in Texas on September 13. Parish presidents, such 
as Aaron Broussard of Jefferson Parish, called Second Harvest 
for help as communities all along the south coast of Louisiana 
had no power, no food, no Red Cross feeding sites, and 
overwhelmed PODs. Second Harvest's trucks were actually stopped 
by the National Guard outside of Morgan City because the Guard 
did not feel it was safe for nonprofits to distribute food. 
Second Harvest was the first nonprofit to bring food to these 
parishes, followed by and in close collaboration with the 
Salvation Army. And the food is still needed.
    Of the 1.9 million pounds of food that Second Harvest Food 
Bank has distributed from September 1st through September 22nd, 
175,000 pounds have come from the DSS/FEMA/USDA pipeline. 
Additional commodities would enable us to maintain our 
distribution rate of over 100,000 pounds per day during the 
next 4 weeks of immediate recovery.
    In a major disaster, food banks do not have the capacity to 
replace Government response. The removal of the restrictions 
that current limit and slow the distribution of USDA 
commodities to food banks and other emergency feeding 
organizations would significantly improve the availability of 
critically needed food and water in the days immediately 
following a catastrophic event. Assistance to build 
infrastructure and funding to help defray the rising costs of 
fuel would make the Feeding America network an even stronger 
partner to USDA and FEMA.
    I have some recommendations that I would respectfully like 
the Committee to consider.
    No. 1, provide the resources and authority needed by USDA 
and FEMA to purchase foods needed in disaster response.
    Second, eliminate legal barriers to prestaging food.
    Third, ensure that there is enough logistical support to 
get the food into areas cutoff by water.
    Fourthly, improve the process to bring more flexibility to 
the types of products that are made available and the number of 
nonprofits that distribute them.
    Most importantly, let's work to make sure that the 
emergency food response system has as its primary focus getting 
assistance to people as efficiently and effectively as 
possible, and making concerns about avoiding duplication a 
secondary consideration.
    Thank you for allowing me to speak before you today. Second 
Harvest Food Bank of Greater New Orleans and Acadiana and the 
food banks of the Feeding America network are privileged to be 
partners with the USDA and FEMA in disaster response and in the 
everyday economic emergencies that people are currently facing. 
I firmly believe that by working together we can continue to 
make progress in ensuring that all people have access to 
nutritious food.
    Thank you.
    [The prepared statement of Ms. Jayroe can be found on page 
75 in the appendix.]
    Chairman Harkin. Thank you very much, Ms. Jayroe.
    Now we turn to Mr. Jon W. ``Jay'' Hardwick, who produces 
7,300 acres of cotton, corn, grain sorghum, peanuts, soybeans, 
and wheat. I am told emphasis is placed on conservation crop 
production methods, including no-till, crop rotation, residue 
maintenance, erosion control, and precision technologies to 
apply and reduce pesticides and nutrient resources. Maybe it is 
that GPS. I do not know whether you----
    Mr. Hardwick. Yes, sir.
    Chairman Harkin. Oh, you are doing that--to help restore 
and improve water, air, soil, wildlife habitat, and crop 
production economics. Jay currently serves as Vice Chairman of 
the National Cotton Council, also is a Director on the National 
Peanut Board, Director of Farm and Livestock Credit, Cotton 
Incorporated, and also a Director of the Tensas-Concordia Soil 
and Water Conservation District.
    So, Mr. Hardwick, thank you very much for being here. 
Please proceed.

   STATEMENT OF JON W. ``JAY'' HARDWICK, NORTHEAST LOUISIANA 
    COTTON FARMER, NEWELLTON, LOUISIANA, AND VICE CHAIRMAN, 
                    NATIONAL COTTON COUNCIL

    Mr. Hardwick. Well, Mr. Chairman, thank you for holding 
today's hearing and for allowing me to describe some of the 
devastating effects of Hurricanes Gustav and Ike on our farming 
operations and rural businesses in Louisiana. And, Senator 
Landrieu, we appreciate you taking time last weekend to visit 
and tour some of the areas affected.
    I am Jay Hardwick from Newellton, Louisiana, and I am 
currently serving as Vice Chairman of the National Cotton 
Council, as you mentioned. Our family operated farm is highly 
diversified. We produce cotton, corn, grain sorghum, soybeans, 
wheat, specialty crops, and timber in northeast Louisiana. We 
are also very proud of our conservation and wildlife 
preservation programs. My comments will focus on cotton, but I 
wanted to emphasize that no crop was spared in Louisiana.
    Louisiana State University cotton specialists estimate that 
over 80,000 cotton acres will not be harvested. Many of the 
harvested acres' yield losses will be high and the quality will 
be low. The value of the Louisiana cotton crop will be reduced 
by approximately $137 million.
    The hurricanes also impacted our infrastructure. Cotton 
gins, warehouses, and grain elevators rely heavily on volume to 
cover fixed costs and provide jobs. Many gins and warehouses 
will operate at reduced capacity or not at all in 2008. This 
means fewer jobs and lower revenues for our rural communities.
    Water is not generally a limiting factor in Louisiana 
agricultural production. The abundance can be. Our annual 
rainfall is about 58 inches. We received an additional 50 
percent over the course of 30 days during August and September. 
Over the years, we have adopted crop practices and management 
skills to accommodate short periods of excessive rainfall using 
best management practices, such as conservation tillage, 
enhanced field drainage, erosion control structures, elevated 
planting beds, diversified crop mixes, and marketing 
strategies.
    However, successive tropical storms Faye, Gustav, and Ike, 
and catastrophic rainfall accumulation simply overwhelmed our 
crops, landscape, and management. Even though I live 200 miles 
north of the Louisiana Gulf Coast, these systems have no 
boundaries, spare few, and have an extensive reach. The five-
parish area in which I live was impacted 100 percent. Above 
average to total crop destruction occurred, which you have 
seen, and harvested crops have been of extremely poor quality.
    Neighbors and friends who produce rice, sugar cane, sweet 
potatoes, peanuts, and pecans have suffered incredible losses 
as well. No such weather event in memory has had greater impact 
on our crops throughout Louisiana.
    I harvest my crops from late July through October. It 
spreads my risk, cash-flow, labor, machinery, conservation 
efforts, marketing and field preparations for the upcoming 
year. Faye, Gustav, and Ike came at the worst possible time. I 
simply could not absorb all three of these storms. Neither 
could my friends and neighbors.
    Now we are faced with additional expenses to restore land 
from wet harvest and repair on erosion measures in preparation 
for 2009. Large domestic and international grain buyers in our 
area no longer purchase or accept any damaged grain against 
producer contracts. These companies are expecting us to meet 
those contracts. Farmers are asking how to satisfy these 
contracts and determine ways to meet other financial 
obligations. So one can only imagine the shock and awe of what 
has happened in our area. Having no crop to sell or damaged 
crop to apply to contracts may initiate an economic disaster 
perhaps far greater than the weather events alone in Louisiana.
    Some expect crop insurance to provide most of the necessary 
financial assistance. While almost all on acres are covered by 
insurance, over 50 percent have the minimum coverage known as 
Catastrophic or CAT coverage, which provides minimal benefits, 
only if the area is a catastrophic loss. Neighboring Catahoula 
and Concordia Parishes were some of the hardest hit. They had 
only CAT level policies on over 37,000 acres of cotton. I have 
the same coverage.
    I encourage Congress to develop a plan that will deliver 
financial assistance to producers in a timely manner. Enhanced 
crop insurance coverage, timely ad hoc disaster relief, 
supplemental payments delivered in the same manner as direct 
payments, and enhancements to the provisions of the permanent 
disaster programs should all be considered in order to expedite 
assistance that is commensurate with the losses that have been 
incurred.
    Additional funding for existing cost-share conservation 
programs would help to speed restoration of damaged fields. 
Also, I ask you to consider providing some form of financial 
assistance to gins, warehouses, and other key components of our 
infrastructure that will experience significant financial 
losses due to sharply reduced volumes.
    Mr. Chairman, the economic losses caused by the hurricanes 
are dramatic and severe. Timely assistance is needed. Most 
farmers simply do not have the financial resources to wait 
until 2009.
    Thank you for your consideration of the views and 
recommendations presented and giving me the opportunity to 
present testimony. I would be pleased to respond to your 
questions at the appropriate time.
    Thank you.
    [The prepared statement of Mr. Hardwick can be found on 
page 71 in the appendix.]
    Senator Landrieu. Thank you very much. It was really an 
excellent panel, and Senator Harkin I know may have to leave in 
a moment. Do you have another question?
    Chairman Harkin. No, I do not. I do have to leave. I thank 
everyone for their testimonies. I especially want to thank the 
two Iowans who are here and also Ms. Jayroe, all of you 
involved in the food bank effort. Ms. Prather and Ms. Jayroe 
were involved in the food bank operations. They did a great job 
in Iowa, and I take it they did a great job in Louisiana, too.
    I do have some other questions. I may submit them to you in 
writing. But I anticipate that maybe Senator Landrieu might ask 
those questions that I was going to ask anyway.
    So if you will excuse me, I do have to go, and I thank you 
again very much, Senator Landrieu, for chairing this. Thank 
you.
    Senator Landrieu. [Presiding.] Thank you, Senator Harkin.
    If I could just address a few questions--and I know our 
time is somewhat limited, but starting with you, Mr. 
Commissioner, you visited not only with our cotton farmers and 
our sugar cane farmers, but our sweet potato farmers, et 
cetera. Would you repeat for the record what help you need or 
on behalf of Louisiana needs from this Congress? How quickly do 
you need the help? If you could give us a general outline of 
what you think would be helpful. Mr. Hardwick outlined some 
things specifically in his testimony. Of course, so did Mr. 
Ellender. But if you could recap that, it would be helpful.
    Mr. Strain. When you specifically look at the needs, we 
have between agriculture and our fisheries $750 million in 
damages that we know of. The SURE Program and these other 
programs, the rules have not been written, and any help that 
would be forthcoming would be October or November of next year.
    When you look at specific examples of how you have crop 
insurance and how you have the SURE Program after that, you 
find in many instances, since we were at harvest and have 
harvested a portion of our crops, if you take the sheet example 
of a soybean farmer that has harvested 50 percent of his crop, 
he probably by our calculations will be eligible for zero 
benefits because he has already met those thresholds. When you 
are talking about these programs, you are talking about on 
average, when you look at the crop insurance, 50 percent 
coverage of 55 percent price. And then when you look and say, 
well, why didn't--and the cost of the buy-up--and I will give 
you this, and I think we really need to put this into the 
record. When you talk about cost and coverage--and this is for 
a soybean farmer with an average per acre yield in his county, 
in Richland Parish, will pay $18.62 an acre to insure an APH of 
45 bushels at 65-100. The same type of producer in Adams 
County, Iowa, will pay $4.93 to insure a yield of 52 bushels. 
So we have to pay four times the cost for an insurability that 
is seven bushels lower. Corn and other rates are as well.
    And if I give you just a specific example--and these have 
been submitted to the record. When you look at this particular 
farm, 600 acres of rice, 400 acres of beans, and when you look 
at that under the particular coverages, so the cost of the 60-
100 was approximately $10,800 and the 75-100 approximately 
$21,800. And then the premiums double between 60 and 75 
percent.
    When you look at that--and this person has had loss, total 
loss on his rice, total loss on that 600 acres of rice, and the 
soybean yield was reduced to 15 bushels per acre, when you boil 
it all down from he will receive for what he had to pay for his 
insurance, his net return on these policies is $6,000 on 1,000 
acres. Many farmers did not buy enough.
    The bottom line is the coverages that are there are 
inadequate, and the timing is too late. We need an infusion--
and we have asked for approximately $700 million. The 
programs--before, there was a program in sugar where $40 
million came in, and it was divided up based on the needs to 
stand our farmers back up. If we cannot do this, our economy 
will collapse. After the floor of 1929, it devastated 
Louisiana's economy for many years. It changed and devastated 
the farms throughout the delta and the heartland of Louisiana. 
We cannot allow this to happen again, and we are asking for 
dollars. We are asking for them now because we have to get 
ready to replant to save our entire economy.
    Senator Landrieu. Thank you, Mr. Commissioner.
    Let me ask you, Mr. Asell, did you say--and I think I heard 
you say this--that in the 200-year history of the Sugar 
Program, we have only--or the sugar industry has only asked 
twice in 200 years for special payments related to disasters?
    Mr. Ellender. That is correct. But on those 200 years, we 
often hear in South Louisiana this is the one in 100-year 
storm. Well, in the last 3 years, we received four of them. You 
know, so it has been a tough situation.
    Senator Landrieu. OK. I really cannot overstate how 
shocking that statement is to me. I thought I knew a lot about 
coastal restoration, and I do. And I thought I knew a lot about 
agriculture. But I am absolute shocked to hear that in 200 
years of the sugar cane industry, we have only asked twice for 
the Federal Government for special help.
    I am going to speak about that on the floor of the Senate 
because I think people have an idea that farmers come here 
every year asking for special help. And I want this Congress to 
understand that our sugar cane farmers have only come twice in 
200 years. And I would hope that that in itself would be enough 
motivation for this Congress to understand the extraordinary 
circumstances in which we come and would respond accordingly, 
not just, of course, to you all but to all of our many farmers 
who do not come unless the need is truly there. And I think you 
all have demonstrated that.
    One more question to you, Ms. Jayroe, and then also, Ms. 
Prather, if you want to comment. Help us understand what you 
have both said in your testimony about the emergency program 
that works for the first, I think, 0 to 14 days as the rains 
are pouring in and there is still flooding; people are hungry; 
grocery stores are closed; the restaurants are closed. There is 
very little mobility; the lights are off; a lot of people are 
in darkness. They might have packed a few days of food, but 
they did not realize their electricity would not be on for a 
month or so. OK? So that is the first 14 days that we are now 
way too familiar with in Louisiana.
    In that time period, can anybody receive food? Or do you 
have to have a certain income level?
    Ms. Jayroe. No, at that time period, anyone can receive 
food from food banks. We go into a disaster declaration 
ourselves and open the doors.
    Senator Landrieu. So even people who are at a higher income 
level, they can get help with food. What happens after that 
period, though? And is that what happened to us in Louisiana, 
that that period came, what you are testifying, too quickly to 
an end, and then the Food Stamp Program started, and there is a 
prohibition in the law which I have been trying to repeal--I 
want the record to show this--for 3-1/2 years and have not been 
successful yet. But there is the duplication of benefit 
provision that is preventing you from feeding people that are 
hungry.
    Ms. Jayroe. Right.
    Senator Landrieu. Because the Federal law says they cannot 
get the duplicate benefit. Is that what you are testifying 
today to?
    Ms. Jayroe. Senator Landrieu, that is exactly what our 
biggest issue was, that policy. After Katrina, the USDA TEFAP 
commodities were released into our system for disaster 
response, and then the determination was made that the law did 
not allow that. So, in fact, this time we had USDA commodities 
in our warehouses we could not distribute because of the way 
the laws are currently written.
    And you know the story of the Emergency Food Stamp Program. 
People came back having spent a lot of money on evacuation, 
came back to empty and dark grocery stores, and were unable to 
get the benefits they needed. And we were called on to provide 
immediate help. And I will say the USDA and our State 
Department of Agriculture did everything they could within the 
law to get us the commodities that we needed--in our case, 
175,000 pounds of commodities. But you are exactly right in 
terms of what the issue was for us.
    Senator Landrieu. And, Ms. Prather, do you have anything to 
add to that? Did the same thing happen to you all?
    Ms. Prather. Yes, I agree. What happened in our case is we 
were offered--we get shipments every month. We were offered our 
July allocation in June, and at that point I had gotten 
privately donated food, so I went ahead and used that because I 
knew I needed the food down the road in July. So I could have 
taken my July shipment early. It would have just counted 
against me, and I would not have gotten that replenished.
    Senator Landrieu. But you are testifying that in Iowa, 
though, when people receive in the first early days, there is 
no income limit.
    Ms. Prather. Correct.
    Senator Landrieu. But the minute you all start issuing food 
stamps, there becomes a fairly tight income limit for people 
that are eligible.
    Ms. Jayroe. That is the case for the emergency food stamps. 
It is not the case for our system. We can actually continue 
with disaster response longer, and after Hurricanes Katrina and 
Rita, it was more than a year later, and we were still taking 
care of people, St. Bernard Parish, Plaquemines Parish, Cameron 
Parish, people that were rebuilding their entire lives.
    Senator Landrieu. And is that available to you now?
    Ms. Jayroe. Food is the problem. If we had the food to 
distribute, then, yes, we would be able to continue with 
disaster response as long as we had the resources to do it. And 
as Barb mentioned, the infrastructure and the fuel and the kind 
of operating revenue that we need to make it happen.
    Senator Landrieu. And where do you normally get your food 
from?
    Ms. Jayroe. Well, we are both part of a national network, 
Feeding America, and we have a system of donations from 
corporations at a national level and from our local retailers--
Wal-Marts, Winn-Dixies, the hospitality----
    Senator Landrieu. But from the Government, where do you get 
your food from, from the Government?
    Ms. Jayroe. We have for many years distributed the TEFAP 
commodities for household distribution. Those were the ones 
that were not released, at least without having them leave 
our--or not being replaced. But there are special disaster 
commodities that, with a request from FEMA, USDA can make 
available to us.
    Senator Landrieu. OK. But I am trying to get to the point 
where if you said if you had the food, you could distribute it, 
but you cannot get the food. So my question is: Who can't you 
get the food from? Is it the Government?
    Ms. Jayroe. It is difficult to work the system the way that 
it currently is with Government sources, yes. And there is just 
not enough food available in our private donation system to 
take care of the need.
    Ms. Prather. Yes.
    Senator Landrieu. OK. I am going to have to close the 
hearing. Is there any other comment, briefly, that any of you 
want to make that you think we did not get into the record?
    [No response.]
    Senator Landrieu. OK. I think your testimony has been very 
complete, but let me end with this, and we are going to try to 
do this relief package in a bipartisan basis. But I would hope 
that this Congress would act very quickly to provide, instead 
of the slow process that has been testified to that is 
available to our farmers, when this Congress is seemingly 
providing an expedited process for Wall Street, I would hope 
that this Congress would think about the fact that we seem to 
have very tight regulations for food banks and very loose 
regulations for hedge funds. Something is very wrong with this 
picture, and I hope that this hearing served at least some 
effort to make more available food for hungry people in the 
midst of these storms and to help our farmers who do not come 
here often to ask for help. But because this country has turned 
its back, in my view, time and time again on restoring the 
coast, particularly, and also turned its back on real risk 
management policies that would really help farmers in 
Louisiana, we find ourselves in this predicament.
    So I am going to do everything I can with my colleagues to 
find a solution, but we have got a lot of work ahead of us.
    Thank you so much, and the meeting is adjourned.
    Mr. Strain. Thank you.
    Senator Landrieu. And any written questions or comments, we 
will have until the end of the day tomorrow to submit them for 
the record.
    [Whereupon, at 12:22 p.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                           September 24, 2008



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T6170.001

[GRAPHIC] [TIFF OMITTED] T6170.002

[GRAPHIC] [TIFF OMITTED] T6170.003

[GRAPHIC] [TIFF OMITTED] T6170.004

[GRAPHIC] [TIFF OMITTED] T6170.005

[GRAPHIC] [TIFF OMITTED] T6170.006

[GRAPHIC] [TIFF OMITTED] T6170.007

[GRAPHIC] [TIFF OMITTED] T6170.008

[GRAPHIC] [TIFF OMITTED] T6170.009

[GRAPHIC] [TIFF OMITTED] T6170.010

[GRAPHIC] [TIFF OMITTED] T6170.011

[GRAPHIC] [TIFF OMITTED] T6170.012

[GRAPHIC] [TIFF OMITTED] T6170.013

[GRAPHIC] [TIFF OMITTED] T6170.014

[GRAPHIC] [TIFF OMITTED] T6170.015

[GRAPHIC] [TIFF OMITTED] T6170.016

[GRAPHIC] [TIFF OMITTED] T6170.017

[GRAPHIC] [TIFF OMITTED] T6170.018

[GRAPHIC] [TIFF OMITTED] T6170.019

[GRAPHIC] [TIFF OMITTED] T6170.020

[GRAPHIC] [TIFF OMITTED] T6170.021

[GRAPHIC] [TIFF OMITTED] T6170.022

[GRAPHIC] [TIFF OMITTED] T6170.023

[GRAPHIC] [TIFF OMITTED] T6170.024

[GRAPHIC] [TIFF OMITTED] T6170.025

[GRAPHIC] [TIFF OMITTED] T6170.026

[GRAPHIC] [TIFF OMITTED] T6170.027

[GRAPHIC] [TIFF OMITTED] T6170.028

[GRAPHIC] [TIFF OMITTED] T6170.029

[GRAPHIC] [TIFF OMITTED] T6170.030

[GRAPHIC] [TIFF OMITTED] T6170.031

[GRAPHIC] [TIFF OMITTED] T6170.032

[GRAPHIC] [TIFF OMITTED] T6170.033

[GRAPHIC] [TIFF OMITTED] T6170.034

[GRAPHIC] [TIFF OMITTED] T6170.035

[GRAPHIC] [TIFF OMITTED] T6170.036

[GRAPHIC] [TIFF OMITTED] T6170.037

[GRAPHIC] [TIFF OMITTED] T6170.038

[GRAPHIC] [TIFF OMITTED] T6170.039

[GRAPHIC] [TIFF OMITTED] T6170.040

[GRAPHIC] [TIFF OMITTED] T6170.041

[GRAPHIC] [TIFF OMITTED] T6170.042

[GRAPHIC] [TIFF OMITTED] T6170.043

[GRAPHIC] [TIFF OMITTED] T6170.044

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 24, 2008



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T6170.045

[GRAPHIC] [TIFF OMITTED] T6170.046

[GRAPHIC] [TIFF OMITTED] T6170.047

[GRAPHIC] [TIFF OMITTED] T6170.048

[GRAPHIC] [TIFF OMITTED] T6170.049

[GRAPHIC] [TIFF OMITTED] T6170.050

[GRAPHIC] [TIFF OMITTED] T6170.051

[GRAPHIC] [TIFF OMITTED] T6170.052

[GRAPHIC] [TIFF OMITTED] T6170.053

[GRAPHIC] [TIFF OMITTED] T6170.054

[GRAPHIC] [TIFF OMITTED] T6170.055

[GRAPHIC] [TIFF OMITTED] T6170.056

[GRAPHIC] [TIFF OMITTED] T6170.057

[GRAPHIC] [TIFF OMITTED] T6170.058

[GRAPHIC] [TIFF OMITTED] T6170.059

[GRAPHIC] [TIFF OMITTED] T6170.060

[GRAPHIC] [TIFF OMITTED] T6170.061

[GRAPHIC] [TIFF OMITTED] T6170.062

[GRAPHIC] [TIFF OMITTED] T6170.063

[GRAPHIC] [TIFF OMITTED] T6170.064

[GRAPHIC] [TIFF OMITTED] T6170.065

[GRAPHIC] [TIFF OMITTED] T6170.066

[GRAPHIC] [TIFF OMITTED] T6170.067

[GRAPHIC] [TIFF OMITTED] T6170.068

[GRAPHIC] [TIFF OMITTED] T6170.069

[GRAPHIC] [TIFF OMITTED] T6170.070

[GRAPHIC] [TIFF OMITTED] T6170.071

[GRAPHIC] [TIFF OMITTED] T6170.072

[GRAPHIC] [TIFF OMITTED] T6170.073

[GRAPHIC] [TIFF OMITTED] T6170.074

[GRAPHIC] [TIFF OMITTED] T6170.075

[GRAPHIC] [TIFF OMITTED] T6170.076

[GRAPHIC] [TIFF OMITTED] T6170.077

[GRAPHIC] [TIFF OMITTED] T6170.078

[GRAPHIC] [TIFF OMITTED] T6170.079

[GRAPHIC] [TIFF OMITTED] T6170.080

[GRAPHIC] [TIFF OMITTED] T6170.081

[GRAPHIC] [TIFF OMITTED] T6170.082

[GRAPHIC] [TIFF OMITTED] T6170.083

      
=======================================================================


                         QUESTIONS AND ANSWERS

                           September 24, 2008



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T6170.084

[GRAPHIC] [TIFF OMITTED] T6170.085

[GRAPHIC] [TIFF OMITTED] T6170.086

[GRAPHIC] [TIFF OMITTED] T6170.087

[GRAPHIC] [TIFF OMITTED] T6170.088

[GRAPHIC] [TIFF OMITTED] T6170.089

[GRAPHIC] [TIFF OMITTED] T6170.090

[GRAPHIC] [TIFF OMITTED] T6170.091

[GRAPHIC] [TIFF OMITTED] T6170.092

[GRAPHIC] [TIFF OMITTED] T6170.093

[GRAPHIC] [TIFF OMITTED] T6170.094

[GRAPHIC] [TIFF OMITTED] T6170.095

[GRAPHIC] [TIFF OMITTED] T6170.096

[GRAPHIC] [TIFF OMITTED] T6170.097

[GRAPHIC] [TIFF OMITTED] T6170.098

[GRAPHIC] [TIFF OMITTED] T6170.099

[GRAPHIC] [TIFF OMITTED] T6170.100

[GRAPHIC] [TIFF OMITTED] T6170.101

[GRAPHIC] [TIFF OMITTED] T6170.102

[GRAPHIC] [TIFF OMITTED] T6170.103

[GRAPHIC] [TIFF OMITTED] T6170.104

[GRAPHIC] [TIFF OMITTED] T6170.105


</pre></body></html>
